No. __-____

IN THE

Supreme Court of the United States
>>>>
KATHLEEN K. JOHNSON and JUDITH WOODARD,
Individually and as Trustees of
The Annabell M. Palmer Family Trust,
Petitioners,
v.

UBS AG,
Respondent.
On Appeal from the United States Court of Appeals
for the Second Circuit

PETITION FOR A WRIT OF CERTIORARI

Jack S. Dweck
Counsel of Record
THE DWECK LAW FIRM, LLP
Attorneys for Petitioners
10 Rockefeller Plaza, Suite 1015
New York, New York 10020
212-687-8200
jsd@dwecklaw.com
February 4, 2020

i
QUESTIONS PRESENTED FOR REVIEW
1. Should this Court address and resolve the conflicts and inconsistencies among the Federal Circuits and the State Courts on the issue of general
jurisdiction under long arm statutes over a nonresident corporation and non-domiciliaries conducting business in this country in order to provide
a US based local forum for resolution of commercial, banking and financial disputes and victims of
tortious or unlawful conduct?
2. Is it reasonable for a non-domiciliary to be subjected to general jurisdiction of our courts where its
affiliations within the State are so continuous and
systematic as to render it at home in that State?
3. Was the dismissal of the Amended Complaint
for lack of personal jurisdiction over UBS justified
where sworn statements by UBS in court filings
attested to it being a New York corporation with
offices in New York City and where for decades
UBS has maintained a general presence on a regular and continuous basis within the United States,
specifically in New York and California, and where
UBS has consistently and voluntarily appeared in
lawsuits as Plaintiff and Defendant, and admitted
it was subject to in personam jurisdiction of the
Courts in New York and California?

ii
PARTIES TO THE PROCEEDING
All of the parties to the proceeding are identified
in the case caption.

iii
TABLE OF CONTENTS
Page

QUESTIONS PRESENTED
FOR REVIEW ..........................................

i

PARTIES TO THE PROCEEDING ...............

ii

TABLE OF AUTHORITIES ..........................

v

RELATED CASES.........................................

1

OPINIONS BELOW ......................................

2

JURISDICTION ............................................

3

STATUTORY PROVISIONS INVOLVED .....

4

THE FACTS GIVING RISE TO
THIS ACTION .........................................

7

I.

The 1998 Transfer of Four Million
Dollars to UBS...................................

7

II. The Presence of the Parties in
New York and California for
Jurisdictional Purposes .....................

8

III. UBS has refused to account
for the missing Four Million
Dollar Deposit....................................

9

IV. The Facts Undisputed by UBS ..........

10

iv
Page

SUMMARY OF ARGUMENT........................
I.

11

Jurisdiction is Proper Against
UBS....................................................

11

II. The Defense of the Statute of
Limitations is Not Viable ..................

12

REASONS FOR GRANTING
THE PETITION .......................................

12

I.

TO RESOLVE THE CONFLICT
AND INCONSISTENCIES IN
THE COURTS, OF WHETHER A
NON-DOMICILIARY OF NEW YORK
OR A FOREIGN CORPORATION
CONDUCTING BUSINESS IN
NEW YORK, IS SUBJECT TO
GENERAL JURISDICTION IN
NEW YORK .......................................

12

II. UBS IS GUILTY OF A CONTINUING
WRONG AND THE STATUTE OF
LIMITATIONS IS NOT A VIABLE
DEFENSE TO THIS ACTION...........

26

CONCLUSION ..............................................

26

APPENDIX
EXHIBIT A–
SUMMARY ORDER
Mandate Issued on 12/03/19 ..............1a-10a

v
Page(s)

EXHIBIT B–
ORDER DISMISSING COMPLAINT
AND CLOSING CASE OF
JUSTICE HELLERSTEIN
dated 09/18/2018 ..............................11a-22a
EXHIBIT C–
JUDGMENT entered 09/26/2018 .....23a-25a
EXHIBIT D–
OPINION of 05/04/2017 ...................26a-28a
EXHIBIT E–
DECISION AND ORDER OF
JUSTICE FREED dated 04/12/18....29a-35a
SUPBOENA DUCES TECUM AND
FOR PERSONAL APPEARANCE....36a-38a
EXHIBIT F–
MOTION SEQ. NO. 1 DECISION/
ORDER OF JUSTICE WRIGHT
dated 08/24/2016 ..............................39a-41a
EXHIBIT G–
MOTION SEQ. NO. 2 DECISION/
ORDER OF JUSTICE WRIGHT
dated 11/23/2016 ..............................42a-47a
EXHIBIT H–
WIRE TRANSFER RECEIPT TO
UNION BANK OF SWITZERLAND
dated 08/24/1998 ..............................48a-51a

vi
Page(s)

CITIBANK LETTER CONFIRMING
TRANSFER dated 07/22/2005 .........52a-53a
EXHIBIT I–
ASSIGNMENT OF INTEREST
IN BANK ACCOUNT
dated 01/14/2003 ..............................54a-55a
EXHIBIT J–
MAPS AND LISTINGS OF
UBS ADDRESSES ...........................56a-73a
EXHIBIT K–
SUMMONS AND COMPLAINT
dated 02/08/2010 ..............................74a-79a
EXHIBIT L–
PETITION OF UBS AG TO
NYC TAX COMMISSION
dated 09/25/2015 ..............................80a-92a
EXHIBIT M–
SUMMONS–
Financial Structures Ltd. v.
UBS AG dated 04/17/2008 ...............93a-96a
EXHIBIT N–
DURABLE POWER OF
ATTORNEY PALMER
TO JOHNSON dated 04/29/2004 ...97a-101a
EXHIBIT O–
TRUST AGREEMENT
dated 03/12/1986 ..........................102a-122a

vii
Page(s)

FIRST AMENDMENT TO
TRUST AGREEMENT
dated 08/08/1995 ..........................123a-132a
EXHIBIT P–
SUMMONS AND COMPLAINT
dated 05/16/2018 ..........................133a-153a
EXHIBIT Q–
TRANSLATION OF LETTER
OF UBS/AG dated 10/20/2005
TO DR. DIETSCHI LETTER
OF 10/07/2005 ..............................154a-159a
EXHIBIT R–
COMPLAINT –
Financial Structures Ltd. v.
UBS AG .......................................160a-162a
EXHIBIT S–
ANSWER TO COMPLAINT
by Financial Structures Ltd. v.
UBS AG ........................................163a-165a

viii
TABLE OF AUTHORITIES
Page(s)

Cases
Amoco Egypt Oil Co. v. Leonis Navigation Co.,
1 F. 3d 848, 851, n. 2 (CA9 1993) ............

16

Application of UBS AG v. the Tax
Commission of the City of New York
and the Commissioner of Finance
of the City of New York;
2015-16 (Supreme Court, N.Y. Co.) .........

13

Banco Nacional de Cuba,
658 F.2d 875 (2nd Cir. 1981) ...................

25

Banco Nacional Ultramarino, S.A. v.
Chan,
169 Misc.2d 182, 188
(Sup.Ct. NY Co. 1966), affirmed,
240 A.D.2d 253 (1st Dept. 1997) ..............

18

Base Metal Trading, Ltd. v. OJSC
“Novokuznetsky Aluminum Factory”,
283 F. 3d 208, 213-214 (CA4 2002)..........

16

Bearry v. Beech Aircraft Corp.
818 F. 2d 370, 377 (CA5 1987).................

16

Boder v. Banque Paribas,
114 F.Supp. 117 (EDNY 2000). ................

25

Burger King Corp. v. Rudzewicz,
471 US 462, 475-478 (1985) ..................... 16, 24

ix
Page(s)

Charles Schwab Corporation v.
Bank of America Corporation,
883 F. 3rd 68, 90 (2nd Cir. 2018).............

19

Chew v. Dietrich,
143 F. 3d 24, 29 (2d Cir. 1998) ................

13

Daimler AG v. Bauman et al,
571 U.S. 117 (2017 ...................................

13

Daimler AG v. Bauman,
134 S. Ct. 746 (2014)................................ 16, 21
Deutsche Zentral-Genossen-Schaftsbank AG
v. UBS AG,
2014 Slip Op 31019(U)
(N.Y. Co. 652575/2012) ............................

19

Donnatelli v. National Hockey League,
893 F. 2d 459, 465 (CA1 1990).................

16

Financial Structures CD v. UBS,
Index No. 601159/2008) ...........................

8

HBK Master Fund L.P. v.
Troika Dialog USA, Inc.,
85 A.D.3d 665 (1st Dept. 2011) ................

18

Ins. Corp. of Ireland, Ltd. v. Compagnie
des Bauxites de Guinee,
456 U.S. 694, 703 (1982) ..........................

21

Jimena v. UBS AG Bank, Inc.,
2009 W.L. 10691159
(U.S.Dist.Ct.E.D.Calif. 2009) ...................

21

x
Page(s)

LaMarca v. Pak-Mov Mfg. Co.,
95 N.Y.2d 210, 214 (2000)........................

18

Lakin v. Prudential Securities, Inc.,
348 F. 3d 704, 713 (CA8 2003).................

16

Leonard v. United States,
633 F.2d 599 (2nd Cir. 1980) ...................

25

Metropolitan Life Insurance Co. v.
Anderson Ceco Corp.,
84 F 3d 560, 573 (CA2 1996)....................

16

Olenicoff v. UBS AG,
2010 WL 8530286 (C.D. Cal. 3/6/10)........

24

Picard v. Igoin,
2015 W.L. 603209 (Bankr.S.D.N.Y 2015)

24

Peterson v. Spartan Industries, Inc.,
33 N.Y.2d 463 (1974)................................

18

Roberts v. UBS AG,
2013 WL 1499341(D.C. E.D. Calif. 2013)..

25

Sonterra Capital Master Funding Ltd. v.
Credit Suisse Group AG,
277 F. Supp. 3d 521, 584, 585
(SDNY 2017) ............................................ 13, 19
SPV OSUS Ltd. v. UBS AG,
882 F. 3d 333 (2d Cir. 2018) ....................

13

Trierwelier v. Croxton &
Trench Holding Corp.,
90 F. 3d 1523, 1533 (CA10 1996) .............

16

xi
Page(s)

UBS AG v. Highland Capital
Management L.P.
Index No. 650094/2010............................. 17, 18
United States v. Riviera-Ventura,
72 F.3d 277 (2nd Cir. 1995) .....................

25

Vons Companies, Inc. v. Seabest Foods, Inc.,
14 Cal.4th 434, 445, 58 Cal.Reptr.2nd 899,
926 P. 1025 (1996)....................................

21

World Wide Volkswagon v. Woodson,
446 U.S. 286, 292 (1980) ..........................

24

Statutes
28 U.S.C. § 1257 ............................................

3

28 U.S.C. § 2101............................................

3

California Code of Civil Procedure
§ 410.10.....................................................

15

CPLR § 301 .....................................4, 13, 14, 21, 23
CPLR § 302 ....................................................

14

CPLR § 302(a)(1) ........................................... 14, 18
CPLR § 302(a)(2) ...........................................

14

CPLR §302(a)(3) ............................................

14

CPLR §302(a)(4) ............................................ 14, 19
CPLR § 302(i) ................................................

19

CPLR § 302(3)(i) ............................................

19

CPLR § 302(3)(ii) ...........................................

19

xii
Page(s)

CPLR § 302(4) ...............................................

19

CPLR § 306-b.................................................

4

CPLR § 503 .................................................... 5, 18
CPLR § 503(a) ...............................................

5

CPLR § 503(c) ................................................

5

CPLR § 3211 ..................................................

5, 6

CPLR § 3211(a)7............................................

5

CPLR § 3211(a)8............................................

5

CPLR § 3212 ..................................................

6

CPLR § 3214(b)..............................................

6

FED.R.Civ.P. 12(b)(2).....................................

6

FED.R.Civ.P. 12(b)(6).....................................

6

FED.R.Civ.P. 12(h)(i) .....................................

21

RELATED CASES
1. In the Matter Of The Application Of KATHLEEN
K. JOHNSON and JUDITH WOODARD, Individually and
As Trustees Of The Annabell M. Palmer Family
Trust to Examine Certain Records of UBS AG and
to Obtain Deposition Upon Oral Examination to
Aid Preparation Of A Complaint; Supreme Court of
the State of New York, County of New York, Index
No. 150457/2016, Date of Entry of Order of denial:
August 24, 2016, affirmed, Supreme Court of the
State of New York, Appellate Division, First
Department, Matter of Johnson v. Union Bank of
Switzerland, AG, 150 A.D. 3d 436 (1st Dept. 2017),
NY Slip Op 3624, 51 N.Y.S.3d 417. (Pet. App. D).
2. KATHLEEN K. JOHNSON and JUDITH WOODARD,
Individually and As Trustees Of The Annabell M.
Palmer Family Trust v. AON RISK SERVICES NORTHEAST , I NC .; Supreme Court of the State of New
York, County of New York, Index No. 653611/2016,
Date of Entry of Order to Quash Subpoena for
records granted and to Adjudge UBS in contempt,
which was denied: April 12, 2018, is reported at
2018 NY Slip Op 30677(u) (Pet. App. E).
3. KATHLEEN K. JOHNSON and JUDITH WOODARD,
Individually and As Trustees Of The Annabell M.
Palmer Family Trust v. Union Bank of Switzerland; Supreme Court of the State of New York,
County of New York, Index No. 653606/2016,
Process never served and action discontinued
December 19, 2016.

2
KATHLEEN K. JOHNSON and JUDITH WOODARD petition for a writ of certiorari to review the Summary
Order of the United States Court of Appeals For
the Second Circuit, which affirmed the judgment of
the United States District Court, Southern District
of New York, dated September 26, 2018, based
upon the Decision and Order of the Honorable
Alvin K. Hellerstein dated September 18, 2018,
which ruled that the District Court lacked personal
jurisdiction over UBS and that the claims were
untimely; affirmed, United States Court of Appeals
for the Second Circuit, November 7, 2019. (Pet.
App. A)1.
OPINIONS BELOW
The Decision and Order of the United States District Court for the Southern District of New York,
dated September 18, 2018 (Pet. App. B) and the
Judgment entered therein, dated September 26,
2018 (Pet. App. C). The District Court Decision and
Order, and the Summary Order of the United
States Court of Appeals, dated November 7, 2019,
are not officially reported. (Pet. App. C).
The decision of the Supreme Court of the State of
New York, Appellate Division, dated May 4, 2017 is
reported at 150 A.D. 3d 436, 51 N.Y.S.3d 417 (1st
Dept. 2017), (Pet. App. D).
The Order of the Supreme Court of the State of
New York, County of New York (Pet. App. E) in the
1

Pet. and App. refer to Petitioner’s Appendix.

3
case of K ATHLEEN K. J OHNSON and J UDITH
WOODARD, Individually and As Trustees Of The
Annabell M. Palmer Family Trust v. AON RISK
SERVICES NORTHEAST, INC. dated April 12, 2018, is
2018 NY Slip Op 30677(E).
The Order of the Supreme Court of the State of
New York, County of New York, dated August 24,
2016 (Pet. App. F) is the proceeding to Examine
Records And to Obtain Deposition Upon Oral
Examination of UBS to Aid of Preparation of Complaint is not reported and the Order granting reargument dated November 23, 2016, which adhered
to the prior decision is not reported (Pet. App. G).
JURISDICTION
The Summary Order of the United States Court
of Appeals for the Second Circuit was dated
November 7, 2019. Pursuant to 28 U.S.C. 2101 and
Rule 13 of this Court, this Petition for a Writ of
Certiorari was filed within ninety days after entry
of the Summary Order, which affirmed the Judgment of the District Court, which dismissed the
Amended Complaint for lack of personal jurisdiction over UBS and for failing to meet the Statutes
of Limitations for the various claims under New
York Law. The statutory provision believed to confer jurisdiction upon this Court to review this writ
of certiorari is 28 U.S.C. 1257.

4
STATUTORY PROVISIONS INVOLVED
NY CPLR § 301:
“§ 301. Jurisdiction over persons, property or status
A court may exercise such jurisdiction over
persons, property, or status as might have
been exercised heretofore.”
NY CPLR § 306-b:
“§ 306-b. Service of the summons and
complaint,
summons
with
notice, third-party summons
and complaint, or petition with
a notice of petition or order to
show cause
Service of the summons and complaint,
summons with notice, third-party summons
and complaint, or petition with a notice of
petition or order to show cause shall be made
within one hundred twenty days after the
commencement of the action or proceeding,
provided that in an action or proceeding,
except a proceeding commenced under the
election law, where the applicable statute of
limitations is four months or less, service
shall be made not later than fifteen days
after the date on which the applicable
statute of limitations expires. If service is
not made upon a defendant within the time
provided in this section, the court, upon
motion, shall dismiss the action without prej-

5
udice as to that defendant, or upon good
cause shown or in the interest of justice,
extend the time for service.”
NY CPLR § 503(a) and (c):
“§ 503. Venue based on residence
(a) Generally. Except where otherwise
prescribed by law, the place of trial shall be
in the county in which one of the parties
resided when it was commenced; or, if none
of the parties then resided in the state, in
any county designated by the plaintiff. A
party resident in more than one county shall
be deemed a resident of each such county.
. . .
(c) Corporation. A domestic corporation,
or a foreign corporation authorized to
transact business in the state, shall be
deemed a resident of the county in which its
principal office is located; except that such a
corporation, if a railroad or other common
carrier, shall also be deemed a resident of
the county where the cause of action arose.”
NY CPLR § 3211(a) 7 and 8:
“§ 3211. Motion to dismiss
(a) Motion to dismiss cause of action. A
party may move for judgment dismissing one
or more causes of action asserted against
him on the ground that: . . .

6
7. the pleading fails to state a cause of
action; or
8. the court has no jurisdiction of the
person of the defendant; . . .
NY CPLR § 3214(b):
“§ 3214. Motion heard by judge supervising disclosure; stay of disclosure
(b) Stay of disclosure. Service of a notice
of motion under rule 3211, 3212, or section
3213 stays disclosure until determination of
the motion unless the court orders otherwise.
If the motion is based solely on the defense
that the summons and complaint, summons
with notice, or notice of petition and petition
was not properly served, disclosure shall not
be stayed unless the court orders otherwise.”
FED.R.CIV.P. 12(b)(2) and 12(b)(6):
(b) H OW TO P RESENT D EFENSES . Every
defense to a claim for relief in any pleading
must be asserted in the responsive pleading
if one is required. But a party may assert the
following defenses by motion:
2. lack of personal jurisdiction; . . .”
6. failure to state a claim upon which relief
can be granted; . . .”

7
THE FACTS GIVING RISE
TO THIS ACTION
I.

THE 1998 TRANSFER OF FOUR MILLION
DOLLARS TO UBS

In 1998, Annabell Palmer (“the Decedent”) age
83, deposited Four Million Dollars with Union
Bank of Switzerland (“UBS”) by a SWIFT wire
transfer (Pet. App. H). The Plaintiffs, Trustees of
the Annabell M. Palmer Family Trust (“Trust”), as
assignees of the Decedent (Pet. App. I), seek to
recover these funds and to learn of the disposition
of that money. UBS has admitted that the money
was transferred to it and placed in a numbered
account. UBS has opposed and stonewalled every
effort by the Decedent and the Plaintiffs to secure
information, as to the existence, location and
return of these funds entrusted to it. UBS was designated to act as the investment advisor for Ms.
Palmer for the purchase and sale of Middle Term
Bank Notes from banks in Europe with AA or better ratings. UBS as her investment advisor was a
fiduciary to Ms. Palmer. The refusal by UBS to furnish information about, and to return, these funds,
constitutes a breach of its fiduciary obligations to
the Decedent. UBS is guilty of misappropriating
the money by conversion, along with its breach,
breach of contract, and breach of the covenant of
good faith.
UBS has not provided an accounting of the
investment of the Decedent’s money and claimed

8
that it was not obligated to deal with Ms. Palmer,
or the Plaintiffs.
II. THE PRESENCE OF THE PARTIES IN
NEW YORK AND CALIFORNIA FOR
JURISDICTIONAL PURPOSES
Kathleen Johnson is a New York resident. Official filings reflect that UBS AG is both a New York
and Swiss corporation with multiple offices in New
York and California (Pet. App. J–pages 57a to 63a)
and pages 64a to 73a respectively). UBS has admitted it has authority from the New York State Banking Department to engage in the banking business
in New York. UBS voluntarily availed itself of the
Courts in New York State. It brought an action as
Plaintiff against Highland Capital Management in
the New York County Supreme Court, Index No.
650094/2010 and availed itself of the jurisdiction of
the courts in New York (Pet. App. K–pages 76a,
78a and 79a). UBS owns real property which consists of a large multi-story commercial office building in Manhattan at 1285 Avenue of the Americas.
UBS filed a Certiorari Proceeding to reduce taxes
on its New York office building in the Supreme
Court, New York County, and twice alleged in a
Verified Petition by its Managing Director and its
attorney, that it was a domestic corporation (Pet.
App. L–pages 82a and 90a). UBS voluntarily submitted to general jurisdiction by the courts in
New York in its Answer to the Summons and Complaint against it, in the New York Supreme Court.
(See, Financial Structures Ltd. v. UBS, Index No.

9
601159/2008) (Pet. App. M–pages 94a, 95a, and 96a;
Pet. App. R–pages 161a and 162a; Pet. App. S–pages
164a and 165a).
The singular issue on this Appeal is whether the
lower courts failed to recognize that UBS has such
a major presence in New York and California subjecting it to general jurisdiction and whether it is
reasonable to require it to defend the lawsuit
against it brought in the Southern District in New
York.
III. UBS HAS REFUSED TO ACCOUNT FOR
THE MISSING FOUR MILLION DOLLAR
DEPOSIT
UBS has refused to disclose what happened to
the money! UBS received the money on August 24,
1998, by a Swift international wire transfer to it for
deposit into an account for the benefit of Annabell
Palmer as beneficiary (Pet. App. H). This was officially documented and presented to the lower
courts. UBS investment personnel in the United
States and Switzerland were to act jointly with
Vincent Ellis Brown, a Solicitor in the United Kingdom, in the selection and purchase of the Medium
Term Bank Notes. UBS and Solicitor Brown were
to act as financial advisors when UBS received Ms.
Palmer’s funds and, thus, were fiduciaries of Ms.
Palmer.
UBS asserted bogus defenses in its motion to dismiss that the U.S. District Court lacks jurisdiction
to entertain this lawsuit and that disclosure of
information would violate Swiss criminal statutes.

10
It also argued that the Statute of Limitations bars
any action and that Ms. Palmer wrote off the loss of
the money on her tax return. The District Court
accepted these defenses and granted UBS’ motion
under FRCP 12(b)(2) and 12(b)(6) to dismiss the
Complaint. This was a reversible error.
UBS asserts that the money went into a numbered account and it was not obligated to deal with
Ms. Palmer or the Plaintiffs, who had her Power of
Attorney, and who are the Successor Trust beneficiaries (Pet. App. N–pages 98a to 101a). The
unchallenged authenticity of the Assignment was
the legal basis which required UBS to turn the
money over to the Trustees. UBS was aware of this
Assignment. It was an exhibit to its Motion to Dismiss (Pet. App. I–page 55a).
This lawsuit represents the culmination of years
of frustration by Ms. Palmer and her Trustees in
their attempts to recover the family money. By
UBS having failed to return and account for these
funds; it is guilty of misappropriation.
IV. THE FACTS UNDISPUTED BY UBS
1. Annabell Palmer, at age 83, transferred Four
Million Dollars to UBS by a Wire Transfer Confirmation (Pet. App. H).
2. Annabell Palmer was named and described in
the Wire Transfer Confirmation as the beneficiary
of the account established by UBS (Pet. App. H).

11
3. The Plaintiffs are the Successor Trustees of
the Palmer Family Trust (Pet. App. O–page 113a).
4. The Plaintiffs have an Assignment of Annabell
Palmer’s interest in her deposit with UBS (Pet.
App. I).
5. Kathleen Johnson is a New York resident and
Judith Woodard is a resident of Idaho (Pet. App. P–
page 137a–Summons and Complaint).
6. UBS AG is both a Swiss corporation (Pet. App.
K–page 76a and M–pages 94a, 95a, 96a and 96aa)
and a New York corporation with multiple offices
in New York (Pet. App. J–pages 57a to 63a) and
California (pages 64a to 73a), and conducts a multibillion dollar business in the United States of
America.
7. UBS has alleged in a Verified Petition in the
New York Supreme Court, it is a New York “domestic corporation” (Pet. App. L–pages 82a and 90a).
8. UBS has a certificate to engage in the banking
business in New York.
SUMMARY OF ARGUMENT
I.

JURISDICTION IS PROPER AGAINST
UBS

UBS is subject to general jurisdiction in New
York and California based upon multiple grounds,
inclusive of its major presence in the United States
and, specifically, New York and California. UBS
has, on multiple occasions, voluntarily submitted

12
to in personam jurisdiction in several court proceedings, both in California and New York. These
admissions were not recognized or addressed by
the Circuit Court, the United States District Court,
or the New York State Supreme Court. UBS has
been found by various courts to be subject to general jurisdiction of the courts in New York and California and it is reasonable that it should be
required to defend the instant lawsuit.
UBS’ Motion to Dismiss for Lack of Jurisdiction,
should have been denied.
II. THE DEFENSE OF THE STATUTE OF
LIMITATIONS IS NOT VIABLE
UBS is guilty of a continuing wrong as a bar to
the Defendant’s Statute of Limitations defense.
REASONS FOR GRANTING THE PETITION
I.

TO RESOLVE THE CONFLICT AND
INCONSISTENCIES IN THE COURTS, OF
WHETHER A NON-DOMICILIARY OF
NEW YORK OR A FOREIGN CORPORATION CONDUCTING BUSINESS IN NEW
YORK, IS SUBJECT TO GENERAL JURISDICTION IN NEW YORK

The prior Lower Court decisions reflect an unsettled disparity among various federal and state
courts with respect to the criteria to determine
whether long arm statutes are uniformly applied
on the issue of general jurisdiction over non-domi-

13
ciliaries. See SPV OSUS Ltd. v. UBS AG, 882 F. 3d
333 (2d Cir. 2018); Chew v. Dietrich, 143 F. 3d 24,
29 (2d Cir. 1998); Sonterra Capital Master Funding
Ltd. v. Credit Suisse Group AG, 277 F. Supp. 3d
521, 584, 585 (SDNY 2017);
With respect to general jurisdiction over UBS, it
is a fiction to insulate UBS from general jurisdiction by the Courts in New York by seeking to apply
the rule from the case of Daimler AG v. Bauman et
al, 571 U.S. 117 (2017) that a foreign corporation
and its principal place of business is not in New
York. UBS should be subject to general jurisdiction
because (1) it owns property in New York, (2) for
years it has had a major and permanent presence
in New York with multiple New York City based
offices, (3) conducts extensive banking and securities business in New York, which extends to hundreds of millions of dollars, (4) it has alleged in
multiple legal documents sworn to and filed in the
New York courts, both as a plaintiff and defendant,
that it is subject to the jurisdiction of the courts
and is present in New York. In one instance, in the
filing of a sworn petition signed by an officer and
managing director of UBS, it was stated that UBS
is a domestic corporation with its principal offices
located at 1285 Avenue of the Americas in Manhattan; see Application of UBS AG v. the Tax Commission of the City of New York and the Commissioner
of Finance of the City of New York; 2015-16
(Supreme Court, N.Y. Co.) (Pet. App. L–pages 82a,
89a and 90a). Based upon this document alone,
general jurisdiction is founded squarely upon the
criteria promulgated by the provisions of CPLR

14
§ 301 that a court in New York may exercise such
jurisdiction over persons, property, or status as
might have been exercised heretofore. This includes
service of process against UBS personally, or by
service upon the Secretary of State of New York
pursuant to the New York Business Corporation
Law.
On the other hand, if UBS maintains it is a Swiss
corporation, general jurisdiction may be definitely
exercised over it, based upon the provisions of CPLR
§ 302(a)(1), § 302(a)(2), § 302(a)(3) and § 302(a)(4),
as detailed below. The relevant provisions of these
statutes are as follows:
The long arm statute in New York is formalized
in the New York Civil Practice Law and Rules
(CPLR) Section 302, which provides in pertinent
part as follows:
“§ 302. Personal jurisdiction by acts of
non-domiciliaries
(a) Acts which are the basis of jurisdiction.
As to a cause of action arising from any of the
acts enumerated in this section, a court may
exercise personal jurisdiction over any nondomiciliary, or his executor or administrator,
who in person or through an agent:
1. transacts any business within the state
or contracts anywhere to supply goods or
services in the state; or
2. commits a tortious act within the state,
except as to a cause of action for defamation
of character arising from the act; or

15
3. commits a tortious act within the state
causing injury to person or property within
the state, except as to a cause of action for
defamation of character arising from the act,
if he
(i) regularly does or solicits business, or
engages in any other persistent course of
conduct, or derives substantial revenue from
goods used or consumed or services rendered,
in the state, or
(ii) expects or should reasonably expect the
act to have consequences in the state and
derives substantial revenue from interstate
or international commerce; or
4. owns, uses or possesses any real
property situated within the state.
A similar statute is in effect in California, which
is based upon a broad approach in the California
Code of Civil Procedure § 410.10 and reads as
follows:
“A court of this state may exercise jurisdiction on any basis not inconsistent with the
Constitution of this state or of the United
States.”
Under both the New York and California statutes
general jurisdiction is exercised over corporations
based upon (1) Incorporation in the State, (2) Consent, (3) Appointment of Agent, (4) Appearance, (5)
Doing Business in State, (6) Doing an Act in the
State, (7) causing damages in the State by an act or

16
omission elsewhere, (8) Ownership, Use or Possession of thing in the State, (9) other relationships.
In New York, all of the elements for jurisdiction
over UBS are reasonable under contemporary standards and comply with the Fourteenth Amendment
of the due process clause of the United States Constitution; Daimler at 762; Burger King Corp. v.
Rudzewicz, 471 US 462, 475-478 (1985).
With general jurisdiction, the question would be
whether it would be unreasonable to have UBS
defend this action under the circumstances; Burger
King, supra. The Courts of Appeal have uniformly
held that the issue of reasonableness is considered
in the application of general jurisdiction; Metropolitan Life Insurance Co. v. Anderson Ceco Corp., 84
F 3d 560, 573 (CA2 1996). This has been the case in
every circuit. Lakin v. Prudential Securities, Inc.,
348 F. 3d 704, 713 (CA8 2003); Base Metal Trading,
Ltd. v. OJSC “Novokuznetsky Aluminum Factory”,
283 F. 3d 208, 213-214 (CA4 2002); Trierwelier v.
Croxton & Trench Holding Corp., 90 F. 3d 1523,
1533 (CA10 1996); Amoco Egypt Oil Co. v. Leonis
Navigation Co., 1 F. 3d 848, 851, n. 2 (CA9 1993);
Donnatelli v. National Hockey League, 893 F. 2d
459, 465 (CA1 1990); Bearry v. Beech Aircraft Corp.
818 F. 2d 370, 377 (CA5 1987).
Annabell Palmer made a wire transfer of Four
Million Dollars from her Citibank account in Long
Beach, California, where she resided, to UBS in
Biel, Switzerland, on August 24, 1998 by a SWIFT
money transfer “for the account of Annabell Palmer

17
as beneficiary.” This money transfer constituted a
U.S. based transaction (Pet. App. H).
However, based upon the New York residence of
Kathleen Johnson, and the Palmer Trust being
located in New York, Ms. Johnson opted to initiate
proceedings in New York for discovery and depositions of UBS, to aid in framing a complaint. New
York was her venue of choice (Pet. App. F). There
were extensive prior submissions by UBS in New
York Courts sufficient to confer general jurisdiction over UBS, as follows:
1. It owns for several years a multi-million dollar
skyscraper office building at 1285 Avenue of the
Americas (Pet. App. L.).
2. It filed a Verified Petition with the New York
Supreme Court for certiorari to reduce taxes on its
property where it alleged it was a domestic corporation and the owner of real property in Manhattan
at 1285 Avenue of the Americas (Pet. App. L–page
82a).
3. In a complaint by UBS in the Supreme Court,
New York County, UBS AG v. Highland Capital
Management L.P. Index No. 650094/2010 (Pet.
App. K–pages 76a and 78a) it alleged:
i) “UBS is a corporation organized under
the laws of the Country of Switzerland
with an office located at 1285 Avenue of
the Americas, New York, New York.”;
(Pet. App. K–page 76a); and

18
ii) Venue is proper in this Court pursuant
to N.Y. CPLR § 503, because UBS resides
in this County. (Pet. App. K–page 79a).
4. UBS states in its summons, it resides at 1285
Avenue of the Americas, New York, New York
10019; UBS AG v. Highland Capital, Supreme
Court, New York County, Index No. 650094/2010
(Pet. App. K–page 76a).
5. In its answer to a complaint filed against it in
the Supreme Court, New York County, Index No.
601159/08, UBS admitted that it is “a Swiss corporation with its principal place of business in the
State of New York, in New York County, including
101 Park Avenue, and 299 Park Avenue, New York,
New York 10171. UBS does business in the State of
New York. (Pet. App. M–pages 96a and 96aa).
6. The conversion by UBS of the Four Million
Dollars as alleged by the Plaintiffs in the Seventh
cause of action took place in Switzerland, which is
outside of the State of New York. This falls within
the provisions of CPLR § 302(a)(1) and (3); LaMarca
v. Pak-Mov Mfg. Co., 95 N.Y.2d 210, 214 (2000);
Peterson v. Spartan Industries, Inc., 33 N.Y.2d 463
(1974); HBK Master Fund L.P. v. Troika Dialog
USA, Inc., 85 A.D.3d 665 (1st Dept. 2011); Banco
Nacional Ultramarino, S.A. v. Chan, 169 Misc. 2d
182, 188 (Sup.Ct. NY Co. 1966), affirmed, 240
A.D.2d 253 (1st Dept. 1997) since the loss from the
wrongful conduct by UBS was suffered in New
York where the trust res. is located.

19
UBS has cherry picked its submission to, or invocation of, jurisdiction in New York to suit its convenience as it has in the various litigations
described above, where it pleaded its state or country of origin inconsistently and untruthfully. The
causes of action pleaded in the instant action in the
District Court are of a transitory nature. Kathleen
Johnson is a New York resident which justifies
New York as her venue of choice. The absence of
honesty and candor by UBS in its purported
defense of lack of general jurisdiction over it in
New York is manifested by its failure to disclose in
prior proceedings in the New York Supreme Court,
the Federal District and Circuit Courts that jurisdiction over it was affirmed by the Second Circuit
Court of Appeals in 2018 in Charles Schwab Corporation v. Bank of America Corporation, 883 F. 3rd
68, 90 (2nd Cir. 2018). It was held that the Plaintiff
established a prima facie case of personal jurisdiction in New York over UBS, for claims concerning
transactions in California. Under the New York
CPLR, the Plaintiffs had jurisdiction over UBS
under CPLR §302(i), (3)(i), (3)(ii), and 4. In various
court filings listed on page 8 herein, jurisdiction
over UBS has already been found, but never previously disclosed by it; Sonterra Capital Master
Funding Ltd. v. Credit Suisse Group AG, 277 F.
Supp. 3d at 584, 585 (SDNY 2017); Deutsche Zentral-Genossen-Schaftsbank AG v. UBS AG, 2014
Slip Op 31019(U) (N.Y. Co. 652575/2012). When it
suited its purposes, UBS submitted to jurisdiction
in New York. The failure by UBS to make these disclosures should be construed against it in any argu-

20
ment proffered by it objecting to jurisdiction in
New York. This is pure dishonesty by UBS and
such conduct cannot be countenanced.
Under these circumstances, UBS should have
been judicially estopped from asserting any defense
of lack of jurisdiction. This action could also have
been brought in a State or Federal Court in California, because Annabell Palmer lived in California
and transferred her money to UBS from her
account in California. The elements for sustaining
jurisdiction there were equally available. Thus, the
California contacts are as follows:
1. Annabell M. Palmer was a citizen of and lived
in Long Beach, California (Pet. App. H).
2. Annabell M. Palmer had a bank account in
Long Beach, California from which she transferred
her money to UBS (Pet. App. H).
3. Representations were made to Ms. Palmer in
California by third-parties, including a fraudster,
William Herisko, a California resident, to forward
her money to UBS for investment.
4. Annabell M. Palmer suffered the loss in California.
5. UBS has a major voluntary presence in California, as it does in New York.
6. UBS has repeatedly invoked and consented to
jurisdiction in California as well as in New York.
7. UBS has appeared voluntarily in actions in
California as well as New York.

21
The State and Federal Judges in New York have
precluded the Plaintiffs from any relief in the
Courts in New York State. The Plaintiffs would be
forced to sue UBS in Switzerland with respect to
the transactions from the U.S. based bank account
of Ms. Palmer. That would be an unfair burden.
The same holds true for jurisdiction over UBS in
California based upon factual circumstances at
that venue; Vons Companies, Inc. v. Seabest Foods,
Inc., 14 Cal.4th 434, 445, 58 Cal.Reptr.2nd 899,
926 P. 1025 (1996), and where general jurisdiction
has been consented to by UBS by its voluntary
appearance; Jimena v. UBS AG Bank, Inc., 2009
W.L. 10691159 (U.S.Dist.Ct.E.D.Calif. 2009), where
by having appeared, it submitted to personal jurisdiction; Ins. Corp. of Ireland, Ltd. v. Compagnie des
Bauxites de Guinee, 456 U.S. 694, 703 (1982); Rule
12(h)(i) FRCP.
Based upon the foregoing facts, UBS is subject to
general jurisdiction both in New York and California. UBS’s contacts are so “continuous and systematic” as measured against its national activities
that it is “essentially at home” in these two states;
Daimler AG v. Bauman, 134 S. Ct. 746 (2014). On
this basis, the conclusion must be made that UBS
is subject to general jurisdiction in New York.
In New York, UBS has attested in a Verified
Petition filed in the New York Supreme Court, that
it is a domestic corporation and the owner of real
property in Manhattan (Pet. App. L). This falls
squarely within the provisions of CPLR 301. Never-

22
theless, if UBS claims it is a Swiss corporation, it
is subject to general jurisdiction under CPLR
302(4), since it admittedly owns property in New
York at 1285 Avenue of the Americas in Manhattan
and has voluntarily submitted to jurisdiction in
various litigations filed in New York (Pet. App. K
and M). Either way, UBS should be subject to general jurisdiction. The Lower Courts in New York,
both federal and state, erred when they overlooked
or failed to consider these highly significant facts.
The essence of general personal jurisdiction is the
ability to entertain “any and all claims” against an
entity based solely on the entity’s activities in the
forum, rather than on the particulars of the case
before the court. See, Daimler, supra, at 134 S.Ct.
at 762 n.20 (deciding that “[w]hen a corporation is
genuinely at home in the forum” the district court
need not “assess the reasonableness of entertaining
the case”). If a court has general jurisdiction over
an entity, it is subject to both suit and judicial
orders.
In the present proceeding, all factors being considered, both the New York State and the Federal
District and Circuit Courts in New York erred in
failing to find general jurisdiction over UBS. The
overwhelming presence of UBS in New York is confirmed by its ownership of property in New York,
by its sworn statement of being a domestic corporation, by admitting jurisdiction in multiple suits by
and against it, and by its general presence in the
United States, in New York and California. That
issue mandates revisitation by this Court of the

23
decisions of the District and Circuit Courts with a
reversal of the dismissal of the Complaint; Daimler,
supra, at 134; CPLR § 301.
UBS’ contacts with the United States are so pervasive that the exercise by this Court of general
jurisdiction is warranted, necessary and reasonable. Not only does UBS operate branches in California, Connecticut, Illinois, Florida, and New
York, but it also maintains state and federally
chartered trust companies and other limited purpose banks in the United States which are subject
to state regulations and the Controller of the Currency. In April 2000, UBS AG was designated a
“financial holding company” under the Bank Holding Company Act of 1956. It engages in a broad
spectrum of activities, including underwriting and
dealing in securities. Its United States wealth
management unit alone (where it employs nearly
7000 financial advisors), has recorded pre-tax profits of hundreds of millions of dollars. USB AG is “at
home” in the United States and “does business”
here. These activities are binding on the issue of
general jurisdiction over it. See In re Hellas
Telecommunications (Luxembourg) II SCA, 524
B.R. 488, 507-08 (Bankr. S.D.N.Y. 2015) (finding
general jurisdiction over Deutsche Bank AG on
basis of substantial headquarters function and significant assets). The facts in the above cited decision are analogous to those with UBS. With respect
to UBS, these facts are documented by filings in
court cases in which UBS was a party.

24
The Plaintiffs have made a prima facie showing
that UBS has the requisite minimum contacts. The
exercise of jurisdiction can only be defeated by a
“compelling case that the presence of some other
considerations would render jurisdiction unreasonable”; Burger King Corp. v. Rudzewicz, 471 U.S.
462 (1985) “. . . the Defendant’s contacts within
the forum state must be such that maintenance of
the suit does not offend traditional notions of fair
play and justice.” World Wide Volkswagon v. Woodson, 446 U.S. 286, 292 (1980). UBS should have
contemplated that disputes relevant to deposits
and investments from the United States “might
find their way into a United States Court;” Olenicoff
v. UBS AG, 2010 WL 8530286 (C.D. Cal. 2010);
Picard v. Igoin, 2015 W.L. 603209 (Bankr.S.D.N.Y
2015).
The presence of UBS in the United States and
specifically in New York and California is pervasive and overwhelming. It is indeed “at home” in
these states and general jurisdiction over it should
be finalized once and for all. UBS has burdened
courts all over the country with selective defenses
of lack of jurisdiction to suit its purpose which in
many courts have been upheld on specious arguments by UBS. These defenses have not been
asserted in good faith in view of multiple instances
where jurisdiction against it has been upheld and
on other occasions where jurisdiction has been
admitted or invoked voluntarily. UBS should be
judicially estopped from asserting any jurisdictional
defenses especially where it voluntarily appeared;

25
Roberts v. UBS AG, 2013 WL 1499341(D.C. E.D.
Calif. 2013).
II. UBS IS GUILTY OF A CONTINUING
WRONG AND THE STATUTE OF LIMITATIONS IS NOT A VIABLE DEFENSE TO
THIS ACTION
Neither of the opinions from the Circuit or District Court have addressed the continuing wrongful
conduct of UBS, which date from the original
deposit by Ms. Palmer in 1998 up to the present.
The refusal by UBS to return, or account for, the
money, compounded by its refusal to even provide
information of the disposition of the deposit, is a
continuing violation of law.
There is abundant precedent which tolls the
Statute of Limitations under these circumstances;
United States v. Riviera-Ventura, 72 F.3d 277 (2nd
Cir. 1995); Banco Nacional de Cuba, 658 F.2d 875
(2nd Cir. 1981); Leonard v. United States, 633 F.2d
599 (2nd Cir. 1980); Boder v. Banque Paribas, 114
F.Supp. 117 (EDNY 2000). This was the case with
many suits by holocaust survivors dating back to
World War II. The continuing tortious conduct of
UBS is significant and tolls any statute of limitations.
The efforts by the Plaintiffs to recover their family money were reflected by their personal visit to
Switzerland where they received a rejection letter
from UBS (Pet. App. Q–pages 155a to 157a). They
sought pre-action discovery in two proceedings in

26
the New York State Supreme Court. They filed a
Summons and Complaint in the District Court.
With the issue of jurisdiction being firmly addressed
within this Petition, the issue of the Statute of
Limitations should not be a factor in the resolution
of the Plaintiffs’ request for a review of the Circuit
Court decision. The Statute of Limitations not
being a bona fide defense in this case, this Court
should disregard any diversion from its primary
consideration of general jurisdiction over UBS.
CONCLUSION
This case represents an ideal, necessary, timely
and straightforward opportunity to finally put at
rest the evasive tactics of UBS on the issue of general jurisdiction over it, where it has conducted
extensive business transactions in the United
States, and specifically in New York and California, but has declined to answer for its wrongful
conduct causing losses to citizens in this Country.
The decisions in the Second Circuit, the District
Court and in the New York State Supreme Court
have so far departed from the settled principles
which govern the elements of finding general jurisdiction over a non-domiciliary or foreign person or
entity that they represent a manifest disregard of
the facts, a misapplication of the law and most of
all a gross injustice upon the Petitioners. In view of
the inconsistencies, it is incumbent upon this Court
to exercise its power to rectify this egregious
wrong. The abuse of the defense of lack of jurisdic-

27
tion by UBS and others like must be addressed and
abated. It is bad faith litigation which amounts to
another form of bad faith defense pleading.
This Petition for a Writ of Certiorari should be
received favorably and granted.
Respectfully submitted,
THE DWECK LAW FIRM, LLP
By: ______________________
Jack S. Dweck (0659)
Counsel of Record

APPENDIX

1a

Exhibit A

2a
UNITED STATES COURT OF APPEALS
FOR THE SECOND CIRCUIT
No. 18-2906
Mandate Issued on December 3, 2019
SUMMARY ORDER
Rulings by summary order do not have precedential effect. Citation to a summary order
filed on or after January 1, 2007, is permitted
and is governed by Federal Rule of Appellate
Procedure 32.1 and this court’s Local Rule
32.1.1. When citing a summary order in a document filed with this court, a party must cite
either the Federal Appendix or an electronic
database (with the notation “summary order”).
A party citing a summary order must serve a
copy of it on any party not represented by
counsel.
At a stated term of the United States Court of
Appeals for the Second Circuit, held at the
Thurgood Marshall United States Courthouse, 40
Foley Square, in the City of New York, on the 7th
day of November, two thousand nineteen.

3a
PRESENT:
R OBERT A. K ATZMANN ,
Chief Judge,
D ENNY C HIN ,
C HRISTOPHER F. D RONEY ,
Circuit Judges.
KATHLEEN JOHNSON and JUDITH WOODARD,
individually and as Trustees of the
Annabell M. Palmer Family Trust,
Plaintiffs-Appellants,
v.
UBS AG,
Defendant-Appellee,
UNION BANK

OF

SWITZERLAND,
Defendant.

For Plaintiffs-Appellants
Kathleen Johnson and
Judith Woodard:
JACK S. DWECK, The Dweck Law Firm,
LLP, New York, NY.

4a
For Defendant-Appellee
UBS AG:
D AVID L. G OLDBERG , Katten Muchin
Rosenman LLP, New York, NY.
Appeal from a judgment of the United States
District Court for the Southern District of New
York (Hellerstein, J).
U PON D UE C ONSIDERATION , I T I S H EREBY
ORDERED, ADJUDGED, AND DECREED that the judgment of the district court is AFFIRMED.
Plaintiffs-appellants Kathleen Johnson and
Judith Woodard, individually and as trustees of the
Annabell M. Palmer Family Trust (“the Trustees”),
brought suit against defendant-appellee UBS AG
(“UBS”) for conduct arising from decedent Ann
Palmer’s 1998 transfer of $4 million from an account
in the United States to UBS in Switzerland. The
Trustees appeal from a judgment of the United
States District Court for the Southern District of
New York (Hellerstein, J.) dismissing their amended complaint for lack of personal jurisdiction over
UBS and for failing to meet the statutes of limitations for their various claims under New York law.
We assume the parties’ familiarity with the underlying facts, the procedural history of the case, and
the issues on appeal.
“We review de novo a district court’s decision to
grant motions under Rule 12(b)(2) and 12(b)(6).”
Charles Schwab Corp. v. Bank of Am. Corp., 883

5a
F.3d 68, 81 (2d Cir. 2018).1 “[I]n deciding a pretrial
motion to dismiss for lack of personal jurisdiction a
district court has considerable procedural leeway.
It may determine the motion on the basis of affidavits alone; or it may permit discovery in aid of
the motion; or it may conduct an evidentiary hearing on the merits of the motion.” Dorchester Fin.
Sec., Inc. v. Banco BRJ, S.A., 722 F.3d 81, 84 (2d
Cir. 2013) (per curiam). Courts may consider materials outside the pleadings on a motion to dismiss
for lack of personal jurisdiction without converting
it into a summary judgment motion. Id at 86.
“Where. . . the district court relies on the pleadings and affidavits, and does not conduct a fullblown evidentiary hearing, we review the district
court’s resulting legal conclusions de novo,” construing the pleadings and affidavits in favor of the
plaintiffs. Id. at 85.
Three requirements must be met to exercise personal jurisdiction over a defendant: service of
process must have been procedurally proper, “there
must be a statutory basis for personal jurisdiction,”
and “the exercise of personal jurisdiction must
comport with constitutional due process principles.” Waldman v. Palestine Liberation Org., 835
F.3d 317, 327 (2d Cir. 2016). We agree with the district court that the Trustees have not plausibly
alleged facts to meet the due process requirements
for jurisdiction and that they therefore have not
1

Unless otherwise indicated, in quoting cases, all internal quotation marks, alterations, emphases, footnotes, and
citations are omitted.

6a
made “a prima facie showing that jurisdiction
exists.” Charles Schwab, 883 F.3d at 81.
To establish that the exercise of personal jurisdiction comports with the due process clauses of
the Fifth and Fourteenth Amendments, courts
must determine both “whether a defendant has sufficient minimum contacts with the forum to justify
the court’s exercise of personal jurisdiction over the
defendant” and “whether the assertion of personal
jurisdiction over the defendant comports with traditional notions of fair play and substantial justice
under the circumstances of the particular case.”
Waldman, 835 F.3d at 331. In analyzing the minimum contacts requirement, courts have distinguished between two bases for personal jurisdiction: specific jurisdiction and general jurisdiction.
Id. Neither version is present in this case.
First, the Trustees do not allege facts to plead
specific jurisdiction. To establish specific jurisdiction, a “defendant’s suit-related conduct must create a substantial connection with the forum State.”
Walden v. Fiore, 571 U.S. 277, 284 (2014). The
Trustees attempt to meet the minimum contacts
standard through a simple equation: a case arising
out of UBS’s “contacts within the U.S.,” plus
UBS’s continuing presence in New York through
its branch offices, equals specific jurisdiction.
Appellants’ Br. 13. But these components do not
add up. The Trustees’ method of establishing jurisdiction is similar to a “sliding scale approach,” in
which “the strength of the requisite connection
between the forum and the specific claims at issue
is relaxed if the defendant has extensive forum con-

7a
tacts that are unrelated to those claims”—an
approach the Supreme Court has rejected as “a
loose and spurious form of general jurisdiction.”
Bristol-Myers Squibb Co. v. Superior Court of Cal.,
137 S. Ct. 1773, 1781 (2017). “For specific jurisdiction, a defendant’s general connections with the
forum are not enough.” Id.2 And neither the complaint nor any of the other documents in the record
suggest that UBS’s connections with New York
relate to the circumstances of this case. The complaint fails to allege which state Palmer was in
when she wired the $4 million, and it also fails to
indicate where she was convinced to transfer the
funds. It states only that she transferred the funds
from “her account at Citibank in the United
States.” Compl. ¶ 8. The documents the Trustees
entered into the record below indicate that her
account was based in California, not New York.
UBS’s New York presence cannot make up for the
utter lack of any alleged connection between that
presence and the events in this case.
The Trustees also assert that specific jurisdiction
exists because “UBS has availed itself of the Courts
in New York” in other cases. Appellants’ Br. 14; see
Reply Br. 3-4. This argument, too, fails. “Courts
typically require that the plaintiff show some sort
2

For similar reasons, the district court is also correct
that Johnson’s New York citizenship is irrelevant to the personal jurisdiction analysis. See Walden, 571 U.S. at 284 (“We
have consistently rejected attempts to satisfy the defendantfocused ‘minimum contacts’ inquiry by demonstrating contacts between the plaintiff (or third parties) and the forum
State.”).

8a
of causal relationship between a defendant’s U.S.
contacts and the episode in suit, and the plaintiff’s
claim must in some way arise from the defendants’
purposeful contacts with the forum.” Charles
Schwab, 883 F.3d at 84 (emphases added). UBS’s
involvement in other cases in New York does not
create specific jurisdiction because “a defendant’s
relationship with a third party, standing alone, is
an insufficient basis for jurisdiction,” and those
other cases create no “connection between the forum
and the specific claims at issue” here. Bristol-Myers
Squibb, 137 S. Ct. at 1781. For a court to have specific personal jurisdiction, there must be an “adequate link between the State and the nonresidents’
claims.” Id. The Trustees have identified no such
link.
Nor do the Trustees make a prima facie showing
of general jurisdiction. Courts “may assert general
jurisdiction over foreign (sister-state or foreigncountry) corporations to hear any and all claims
against them when their affiliations with the State
are so continuous and systematic as to render them
essentially at home in the forum State.” Daimler
AG v. Bauman, 571 U.S. 117, 127 (2014). “Aside
from the truly exceptional case, a corporation is at
home and subject to general jurisdiction only in its
place of incorporation or principal place of business.” SPV Osus Ltd. v. UBS AG, 882 F.3d 333, 343
(2d Cir. 2018). As this Court has previously noted—
and as UBS’s uncontested declaration filed below
attests—“UBS AG’s place of incorporation and
principal place of business is in Switzerland.” Id.
While the Trustees’ reply brief appears to indirect-

9a
ly contest UBS’s Swiss citizenship, their amended
complaint itself alleges that UBS AG is a citizen of
Switzerland.
The Trustees nevertheless assert that the district court could exercise general jurisdiction over
UBS because UBS “provides banking and investment services in New York” and “is subject to the
regulations of the New York State Department of
Financial Services . . . and the New York State
Banking Authority.” Appellants’ Br. 13. However,
this Court, “in interpreting Daimler, noted that the
case expressly cast doubt on previous Supreme
Court and New York Court of Appeals cases that
permitted general jurisdiction on the basis that a
foreign corporation was doing business through a
local branch office in the forum.” SPV Osus, 882
F.3d at 343. As this Court has held in another similar suit, UBS AG’s contacts with New York do not
“render this an exceptional case” in which general
jurisdiction can be exercised in New York. Id.
While the Trustees argue that jurisdictional discovery should have been granted, they have not
made the “prima facie showing of personal jurisdiction” required to surpass a motion to dismiss, see
Dorchester Fin. Sec., 722 F.3d at 86, and they have
not identified any additional information they
would hope or expect to obtain that would change
the result.3
3
As we find the due process element of personal jurisdiction a sufficient basis for affirming, we need not address the
district court’s determinations that the New York long-arm
statute provides no basis for personal jurisdiction or that the
Trustees’ claims are untimely.

10a
We have considered all of the Trustees’ contentions on appeal and have found in them no basis
for reversal. For the reasons stated herein, the
judgment of the district court is AFFIRMED.
FOR THE COURT:
Catherine O’Hagan Wolfe, Clerk
[SEAL]
/s/ CATHERINE O’HAGAN WOLFE
A True Copy
Catherine O’Hagan Wolfe, Clerk
United States Court of Appeals, Second Circuit
[SEAL]
/s/ CATHERINE O’HAGAN WOLFE

11a

Exhibit B

12a
UNITED STATES DISTRICT COURT
SOUTHERN DISTRICT OF NEW YORK
18 Civ. 4372 (AKH)
Date Filed: September 26, 2018
KATHLEEN K. JOHNSON AND JUDITH WOODBARD,
Individually and as Trustees of
The Annabell M. Palmer Family Trust,
Plaintiff,
—against—
UBS AG,
Defendant.

ORDER DISMISSING COMPLAINT
AND CLOSING CASE
ALVIN K. HELLERSTEIN, U.S.D.J.:
Plaintiffs Trustees of the Annabell M. Palmer
Family Trust filed this action on June 16, 2018,
amending their complaint on July 24, 2018, see
Dkt. No. 8,1 for declaratory judgment (Count I),
breach of fiduciary obligations (Count II), breach of
contract (Count III), money had and received
(Count IV), breach of covenant of good faith (Count
1

Pursuant to the Court’s order, see Dkt. No. 20, the
Court considers Defendant’s motion to dismiss as applied to
the amended complaint.

13a
V), accounting (Count VI), conversion (VII). The
Amended Complaint alleges that, on August 24,
1998, Ann Palmer, then 83 years old, was fraudulently induced to cause her bank, Citibank, to
transfer $4,000,000 to a bank account at Defendant
UBS AG, and seeks information about, or a return
of, these funds. See Amended Complaint at ¶ 1, 7-9.2
Federal subject matter jurisdiction is based on
diversity of citizenship. See 28 U.S.C. § 1332. The
Trustees are citizens of New York, and UBS is a
citizen of Switzerland. See Amended Complaint at
¶ 3.
Defendant moves to dismiss pursuant to Fed. R.
Civ. P. 12(b)(2), (6), see Dkt. No. 15, arguing that
the court lacks personal jurisdiction over UBS and
that the claims are not timely. I grant the motion
and dismiss the complaint.
Personal Jurisdiction
“In order to survive a motion to dismiss for lack
of personal jurisdiction, a plaintiff must make a
prima facie showing that jurisdiction exists.”
Thomas v. Ashcroft, 470 F.3d 491, 495 (2d Cir.
2006). This prima facie showing “must include an
2

The Amended Complaint does not describe the circumstances surrounding Palmer’s transaction, including who
induced Palmer’s transfer and the location where the transfer
occurred. The parties, however, submit various declarations
giving context to the claims. Apparently a man name William
Herisko fraudulently induced Palmer to authorize the $4 million transaction, and in 2003 Palmer’s counsel discovered
Herisko’s fraud and initiated claims against him. Herisko
was also criminally prosecuted and convicted for his fraud.

14a
averment of facts that, if credited by the ultimate
trier of fact, would suffice to establish jurisdiction
over the defendant.” Chloe v. Queen Bee of Beverly
Hills, LLC, 616 F.3d 158, 163 (2d Cir. 2010) (brackets omitted). Federal courts must satisfy three
requirements in order to exercise personal jurisdiction over an entity: (1) the entity must have been
properly served, (2) the court must have a statutory basis for exercising personal jurisdiction, and (3)
the exercise of personal jurisdiction must comport
with constitutional due process. See Licci ex rel.
Licci v. Lebanese Canadian Bank, SAL, 673 F.3d
50, 59-60 (2d Cir. 2012). As a suit premised on
diversity of citizenship, see 28 U.S.C. § 1332, personal jurisdiction is determined by the law of the
forum in which the court sits. CutCo Indus., Inc. v.
Naughton, 806 F.2d 361, 365 (2d Cir. 1986). New
York’s long arm statute, N.Y. C.P.L.R. § 302,
applies.
Under the New York long-arm statute, “a court
may exercise personal jurisdiction over any nondomiciliary . . . who in person or through an agent
. . . transacts any business within the state or contracts anywhere to supply goods or services in the
state.” N.Y. C.P.L.R. § 302(a)(1). “[T]wo requirements must be met: (1) The defendant must have
transacted business within the state; and (2) the
claim asserted must arise from that business activity.” Sole Resort, S.A. de C. V. v. Allure Resorts
Mgmt., LLC, 450 F.3d 100, 103 (2d Cir. 2006). The
“overriding criterion” in determining whether an
entity “transacts any business” in New York is
whether the entity “purposefully avails itself of the

15a
privilege of conducting activities within New
York.” Paterno v. Laser Spine Inst., 24 N.Y.3d 370,
377, 998 N.Y.S.2d 720, 23 N.E.3d 988 (2014).
Furthermore, Section 302(a)(3) of the New York
long-arm statute provides an additional basis for
jurisdiction where “(1) The defendant committal a
tortious act outside the state; (2) the cause of
action arose from that act; (3) the act caused injury
to a person or property within the state; (4) the
defendant expected or should reasonably have
expected the act to have consequences in the state;
(5) the defendant derives substantial revenue from
interstate or international commerce.” Sole Resort,
450 F.3d at 106.
Here, the Complaint fails to allege any connection to New York to make out a prima facie case of
jurisdiction under the New York long-arm statute.
According to the Complaint, Palmer, located in
California,3 initiated a transfer to a Swiss bank
amount held by Defendant UBS, a foreign corporation organized under Swiss law. The Amended
Complaint contains no further factual allegations
about Palmer’s or UBS’s actions. Since no part of
the claims arise from activity occurring in New
York, jurisdiction under § 302(a)(1) is inapplicable.
Furthermore, since there are no allegations that
3

The Complaint in fact fails to allege where Palmer was
located when she initiated the transaction. This failure alone
is sufficient for the Court’s holding that personal jurisdiction
is lacking in New York. The parties represent, and include
various declarations indicating, that Palmer was in fact a resident of California and located there at the time she initiated
the transfer.

16a
defendant acted outside New York with the expectation that such acts will cause injury to a person
or property located in New York, jurisdiction under
§ 302(a)(3) is also inapplicable. That Plaintiffs
Trustees are citizens of New York is not relevant.
The exercise of personal jurisdiction would also
run afoul of the constitutional requirement of “minimum contacts.” “To determine whether a defendant has the necessary ‘minimum contacts,’ a distinction is made between ‘specific’ and ‘general’
personal jurisdiction. In re Terrorist Attacks on
Sept. 11, 2001, 714 F.3d 659, 673 (2d Cir. 2013).
Here, UBS is neither subject to specific nor general
jurisdiction. For specific jurisdiction, courts “evaluate the quality and nature of the defendant’s contacts with the forum state under a totality of the
circumstances test. Where the claim arises out of,
or relates to, the defendant’s contacts with the
forum—i.e., specific jurisdiction is asserted—minimum contacts necessary to support such jurisdiction exist where the defendant purposefully availed
itself of the privilege of doing business in the forum
and could foresee being hauled into court there.”
Licci ex rel. Licci Lebanese Canadian Bank, SAL,
732 F.3d 161, 170 (2d Cir. 2013) (internal quotations marks and citation omitted). Here, none of
the events relating to the claims in the Amended
Complaint occurred in New York. Specific jurisdiction therefore is not supported.
General jurisdiction is also not appropriate here.
General jurisdiction is “based on the defendant’s
general business contacts with the forum . . . and
permits a court to exercise its power in a case

17a
where the subject matter of the suit is unrelated to
those contacts.” In re Terrorist Attacks on Sept. 11,
2001, 714 F.3d 659, 673 (2d Cir. 2013). “Unlike specific personal jurisdiction, general jurisdiction is
not related to the events giving rise to the suit, and
thus, courts impose a more stringent minimum
contacts test, requiring the plaintiff to demonstrate
the defendant’s ‘continuous and systematic general
business contacts’ with the forum at the time the
initial complaint was filed.” Id. at 674 (quoting
Helicopteros Nacionales de Colombia, S.A. v. Hall,
466 U.S. 408, 416 (1984)). The Supreme Court
noted that “[f]or an individual, the paradigm forum
for the exercise of general jurisdiction is the
individual’s domicile; for a corporation, it is an
equivalent place, one in which the corporation is
fairly regarded as at home.” Goodyear Dunlop Tires
Operations, S.A. v. Brown, 564 U.S. 915, 924
(2011). “Aside from ‘an exceptional case,’ the
[Supreme] Court explained, a corporation is at
home (and thus subject to general jurisdiction, consistent with due process) only in a state that is the
company’s formal place of incorporation or its principal place of business. Gucci Am., Inc. v. Weixing
Li, 768 F.3d 122, 135 (2d Cir. 2014) (quoting
Daimler AG v. Bauman, 571 U.S. 117, 139 (2014)).
In Daimler, “the [Supreme] Court expressly cast
doubt on previous Supreme Court and New York
Court of Appeals cases that permitted general
jurisdiction on the basis that a foreign corporation
was doing business through a local branch office in
the forum.” Id.

18a
Here contrary to Plaintiffs’ contentions, there is
no basis for the assertion of general jurisdiction
over UBS. UBS is a Swiss corporation, and the
Amended Complaint contains no allegations that
UBS has ‘continuous and systematic general business contacts’ with the forum such that New York
can “fairly regarded as at home.” The exercise of
jurisdiction over UBS would be inconsistent with
the Due Process requirements of the U.S.
Constitution.
Statute of Limitations
The Amended Complaint alleges that Palmer’s
transaction occurred in 1998, and contains no further allegations about any activity occurring afterwards. These 20 year old claims are barred by the
relevant statute of limitations. See N.Y. C.P.L.R.
§ 213 (six-year limitations for breach of contract
and any “action for which no limitation is specifically provided by law”); § 213 (three year limitations for property and conversation claims).
Palmer in fact contacted defendant about the
claims in suit at least 15 years before filing this
action. Plaintiffs made “inquiries and demands of
UBS personally, and in Court proceedings for information as to the disposition of said monies, and the
return of said monies.” See Amended Complaint at
¶ 11. The Amended Complaint does not allege when
these inquiries occurred, but declarations provided
by UBS show that as early as 2005 counsel for
Palmer was in contact with UBS about the disputed funds. A defendant bears the burden of estab-

19a
lishing that a claim is prima facie time-barred, but,
having done so, the burden shifts to a plaintiff to
“aver evidentiary facts” supporting an exception.
Philip F. v. Roman Catholic Diocese of Las Vegas,
894 N.Y.S.2d 125, 127 (2d Dep’t 2010). Plaintiffs
have failed to aver any facts, in the Amended
Complaint or otherwise, to support an exception to
the statute of limitations.
Conclusion
For the reasons stated above, I hold that the
Court lacks personal jurisdiction over UBS, and
that the claims are untimely. Whether the
Complaint otherwise states plausible claims for
relief is a moot question.
The Amended Complaint is dismissed. The Clerk
shall terminate the motion (Dkt. No. 15) and mark
the case closed.
SO ORDERED.
Dated: September 18, 2018
New York, New York
/s/

ALVIN K. HELLERSTEIN
ALVIN K. HELLERSTEIN
United States District Judge

20a
From:

NYSD_ECF_Pool
<NYSD_ECF_Pool@nysd.uscourts.gov>

To:

CourtMail
<CourtMail@nysd.uscourts.gov>

Subject: Activity in Case 1:18-cv-04372-AKH
Johnson et al v. Union Bank of
Switzerland Order on Motion to Dismiss
Date:

Wed, Sep 26, 2018 11:02 am

This is an automatic e-mail message generated by the CM/ECF system. Please DO NOT
RESPOND to this e-mail because the mail box
is unattended.
***NOTE TO PUBLIC ACCESS USERS***
Judicial Conference of the United States policy permits attorneys of record and parties in
a case (including pro se litigants) to receive
one free electronic copy of all documents filed
electronically, if receipt is required by law or
directed by the filer. PACER access fees apply
to all other users. To avoid later charges,
download a copy of each document during
this first viewing. However, if the referenced
document is a transcript, the free copy and 30
page limit do not apply.

21a
U.S. District Court
Southern District of New York
Notice of Electronic Filing
The following transaction was entered on 9/26/2018
at 11:01 AM EDT and filed on 9/26/2018
Case Name:

Johnson et al v.
Union Bank of Switzerland

Case Number:

1:18-cv-04372-AKH

Filer:
Document Number:

29

Docket Text:
ORDER DISMISSING COMPLAINT AND
CLOSING CASE granting [15] Motion to
Dismiss. For the reasons stated above, I hold
that the Court lacks personal jurisdiction
over UBS, and that the claims are untimely.
Whether the Complaint otherwise states plausible claims for relief is a moot question. The
Amended Complaint is dismissed. The Clerk
shall terminate the motion (Dkt. No. 15) and
mark the case closed. SO ORDERED. (Signed
by Judge Alvin K. Hellerstein on 9/18/2018)
(ne) Transmission to Orders and Judgments
Clerk for processing.

22a
1:18-cv-04372-AKH Notice has been electronically mailed to:
David L Goldberg david.goldberg@kattenlaw.com,
nycclerks@kattenlaw.com
Jack S. Dweck asa2fly@aol.com
Matthew Paul Celano matthew.celano@kattenlaw.
com,nycclerks@kattenlaw.com
1:18-cv-04372-AKH Notice has been delivered
by other means to:
The following document(s) are associated with this
transaction:
Document description:
Original filename:
Electronic document Stamp:
Main Document n/a [STAMP dceefStamp_ID=1008
691343[Date=9/26/2018][FileNumber=20882684-0]
[ab0ead05f3e3fbba61c58064dee045c60d3b8f34d48
d942e65eae936dabb63f36a3dd37ce8a0d1883794f
5754e6711a7be7ff5930dfa209fc6a378f5be676fee]]

23a

Exhibit C

24a
UNITED STATES DISTRICT COURT
SOUTHERN DISTRICT OF NEW YORK
18 CIVIL 4372 (AKH)
Date Filed September 26, 2018
KATHLEEN K. JOHNSON AND JUDITH WOODBARD,
Individually and as Trustee of
The Annabell M. Palmer Family Trust
Plaintiffs,
—against—
UBS AG,
Defendant.
JUDGMENT
It is hereby ORDERED, ADJUDGED AND DECREED:
That for the reasons stated in the Court’s Order
dated September 18, 2018, the Court lacks personal jurisdiction over UBS, and that their claims are
untimely; Whether the Complaint otherwise states
plausible claims for relief is a moot question;
Defendant’s motion is granted and the Amended
Complaint is dismissed; accordingly, the case is
closed.
Dated: New York, New York
September 26, 2018

25a
RUBY J. KRAJICK
Clerk of Court
By:

/s/ [ILLEGIBLE]
Deputy Clerk

THIS DOCUMENT WAS ENTERED
ON THE D OCKET ON S EPTEMBER
26, 2018

26a

Exhibit D

27a
SUPREME COURT, APPELLATE DIVISION,
FIRST DEPARTMENT, NEW YORK.
May 4, 2017.
In re KATHLEEN K. JOHNSON, et al.,
Petitioners-Appellants,
v.
UNION BANK

OF

SWITZERLAND, AG
Respondent-Respondent.

Attorneys and Law Firms
The Dweck Law Firm, LLP, New York (Jack S.
Dweck of counsel), for appellants.
Katten Muchin Rosenman, LLP, New York (David L.
Goldberg of counsel), for respondent.
Opinion
Order, Supreme Court, New York County (Geoffrey
D. Wright, J.), entered on or about August 24,
2016, which denied petitioners’ motion pursuant to
CPLR 3102(c) for pre-action disclosure, unanimously affirmed, with costs. Order, same court and
Justice, entered November 29, 2016, which, upon
reargument, adhered to the determination on the
original motion, unanimously affirmed, without
costs.

28a
Petitioners also failed to demonstrate that they
have a meritorious cause of action and that the
information they seek is “material and necessary to
the actionable wrong” (Holzman v. Manhattan &
Bronx Surface Tr. Operating Auth., 271 A.D.2d
346, 347, 707 N.Y.S.2d 159 [1st Dept. 2000] ).
Rather, they seek broad discovery to determine
whether they may have a valid cause of action
against Union Bank of Switzerland or other possible wrongdoers (see Bishop v. Stevenson Commons
Assoc., L.P., 74 A.D.3d 640, 905 N.Y.S.2d 29 [1st
Dept.2010], lv. denied 16 N.Y.3d 702, 2011 WL
135160 [2011] ).
Supreme Court properly exercised its discretion in
denying petitioners’ motion for pre-action discovery
on the ground that, while the motion was pending,
petitioners commenced an action, i.e., filed a summons and complaint (see Matter of Goldstein v. New
York Daily News, 106 A.D.2d 323, 482 N.Y.S.2d 768
[1st Dept. 1984] ). Disclosure may only be obtained
under CPLR 3102(c) “[b]efore an action is commenced.”
R ICHTER , J.P., A NDRIAS , M OSKOWITZ , F EINMAN ,
KAPNICK, JJ., concur.

29a

Exhibit E

30a
Johnson v AON Risk Servs. Northeast, Inc.
2018 NY Slip Op 30677(U)
April 12, 2018
Supreme Court, New York County
Docket Number: 653611/2016
Judge: Kathryn E. Freed
Cases posted with a “30000” identifier,
i.e., 2013 NY Slip Op 30001(U), are republished
from various New York State and local government sources, including the New York State
Unified Court System’s eCourts Service.
This opinion is uncorrected and not selected
for official publication.

31a
SUPREME COURT OF THE
STATE OF NEW YORK
NEW YORK COUNTY
PRESENT: HON. KATHRYN E. FREED
Justice
PART 2
INDEX NO. 653611/2016
MOTION SEQ. NO. 001
KATHLEEN K. JOHNSON AND JUDITH WOODARD,
INDIVIDUALLY AND AS TRUSTEES OF
THE ANNABELL M. PALMER FAMILY TRUST,
Plaintiffs,
—v—
AON RISK SERVICES NORTHEAST, INC.,
Defendant.
DECISION AND ORDER
The following e-filed documents, listed by NYSCEF
document number 14, 15, 16, 17, 18, 19, 20, 21, 22,
23, 24, 25, 26, 27, 28, 29, 30, 31, 32, 33, 34, 35, 36,
37, 38, 39, 40, 41, 42, 43, 44, 45 were read on this
motion to/for CONTEMPT
In June 2017, plaintiffs’ counsel served nonparty UBS AG with a subpoena duces tecum and a
notice to take deposition upon oral examination.
Plaintiffs now move, by order to show cause, to hold

32a
UBS AG in contempt for failure to comply with the
subpoena and notice of deposition. UBS AG crossmoves to quash the subpoena and notice of deposition. For the reasons that follow, the cross motion
is granted and the motion is denied.
Plaintiffs allege that, in August 1998, Annabell
Palmer (hereinafter decedent), caused $4 million to
be deposited in an account maintained in
Switzerland by non-party UBS AG, to be used by
Solicitor Ellis Brown for the purchase of mediumterm notes. The papers contain a document evincing a wire transfer to a UBS AG account bearing
decedent’s name. Brown’s name appears nowhere
on the documents relating to the wire transfer
itself. Plaintiffs have not come forward with documentary evidence or an explanation as to how they
know that the wire transfer or the account was for
Brown’s use for the purchase of medium-term
notes. They claim that the money has never been
properly accounted for. However, they have not
come forward with any correspondence relating to
requests for an accounting either from decedent or
any other individual, nor do they claim that any
such correspondence or proof exists.
Plaintiffs claim that the alleged losses incurred
by decedent are covered by an insurance policy
issued by defendant that allegedly covered Brown’s
activities, and they seek a judicial declaration to
that effect. The only proof in support of the existence of the insurance policy is a single-page fax
dated January 8, 1998, apparently from a person
named Robin Baily, who appears to have worked
for defendant, to Brown. The actual insurance pol-

33a
icy and its terms are not in any of the documents
before the court, and plaintiffs have not explained
why they think that the policy would have covered
the losses or, indeed, that the policy bears any relationship to decedent. Nothing in the papers even
alleges how decedent and Brown came to know one
another.
Plaintiffs claim to be decedent’s assignees or
authorized by a power of attorney to make this
claim on behalf of decedent. They do not support
this contention with any documentation. The
papers before this Court do not contain the trust
documents or any documentation reflecting such an
assignment or power of attorney, much less one
that could survive decedent’s death. (See General
Obligations Law § 5-1511 [1] [a].) It is particularly
puzzling, and plaintiffs have not explained, how
this action can proceed in the absence of decedent’s
estate.
Turning to the instant application, plaintiffs’
contention that UBS AG’s cross motion is untimely
is without merit, since UBS AG provided adequate
objections to the subpoena, and the burden is on
the party serving the subpoena to initiate a judicial
enforcement mechanism—not on the party seeking
to avoid enforcement to move to quash. (See CPLR
3122 [a] [1]; Rubino v 330 Madison Co., LLC, 39
Misc 3d 450, 451-452 [Sup Ct, NY County 2013,
Ling-Cohan, J.]; Siegel, NY Prac § 362 at 685 [6th
ed 2018].)
“An application to quash a subpoena should be
granted only where the futility of the process to
uncover anything legitimate is inevitable or obvi-

34a
ous . . . or where the information sought is utterly
irrelevant to any proper inquiry.” (Matter of Kapon
v Koch, 23 NY3d 32, 38 [2014] [internal quotation
marks, brackets and citations omitted]; see Alpert v
Alpert, 151 AD3d 541, 542 [1st Dept 2017]; State of
N.Y. ex rel. Murray v Baumslag, 134 AD3d 451, 452
[1st Dept 2015].) Since this Court can discern nothing resembling a timely cause of action on the face
of the pleadings, or any relationship between the
alleged 1998 transfer, the alleged defalcations, the
alleged insurance policy, or, indeed, that plaintiffs
have a right to collect on behalf of decedent, it finds
that the subpoenas are utterly irrelevant to any
proper inquiry.1 The Court therefore has no occasion to turn to UBS AG’s alternative arguments
and, in the absence of a valid subpoena to enforce,
the motion for contempt must be denied.
Accordingly, it is hereby:
ORDERED that the cross motion by UBS AG to
quash the subpoena and notice of deposition is
granted; and it is further
ORDERED that the motion to hold non-party UBS
AG in contempt is denied, as moot.

1
This Court notes that the Appellate Division, First
Department has previously found, on plaintiffs’ prior application for pre-action discovery against UBS AG, that they
“failed to demonstrate that they have a meritorious cause of
action and that the information they seek is material and
necessary to an actionable wrong.” (Matter of Johnson v
Union Bank of Switzerland, AG, 150 AD3d 436 [1st Dept
2017] [internal quotation marks and citation omitted].)

35a
April 12, 2018
Date

/s/

KATHRYN E. FREED
Kathryn E. Freed, J.S.C.

Check One:
o Case Disposed ⌧ Non-Final Disposition
o Granted o Denied o Granted in Part ⌧Other
Application:
o Settle Order o Submit Order
Check if Appropriate:
o Do Not Post o Fiduciary Appointment
o Reference

36a
SUPREME COURT OF THE
STATE OF NEW YORK
COUNTY OF NEW YORK
Index No.: 653611/2016
KATHLEEN K. JOHNSON AND JUDITH WOODARD,
Individually and as Trustees of
The Annabell M, Palmer Family Trust,
Plaintiffs,
—against—
AON RISK SERVICES NORTHEAST, INC.
(formerly known as Aon Risk Services, Inc.),
Defendant.
SUBPOENA DUCES TECUM AND
FOR PERSONAL APPEARANCE
The People of the State of New York
To: UBS AG
299 Park Avenue
New York, NY 10171
IT IS HEREBY ORDERED, that all business and
excuses being laid aside, you appear and attend
before The Dweck Law Firm, 10 Rockefeller Plaza,
Suite 1015, New York, New York, on the 12th day
of July, 2017 at 10:00 o’clock in the forenoon, and
at any recessed or adjourned date to give testimony

37a
in this action on the part of the Plaintiffs, and that
you bring with you, and produce at the time and
place aforedescribed the following:
All documents concerning any dealings, communications, emails, texts, correspondence, memoranda or writings of any and every kind with, concerning, about or having to do with an account or
accounts at UBS, a/k/a Union Bank of Switzerland,
of the late Annabell Palmer, and/or Vincent Ellis
Brown, and/or K.S. Harrison, and/or William
Herisko, and/or J.G. Minniece.
FAILURE, to comply with this subpoena is punishable as a contempt of Court and shall make you
liable to the person on whose behalf this subpoena
was issued for a penalty not to exceed fifty dollars
and all damages sustained by reason of your failure
to comply.
WITNESS, Honorable Carol Edmead, one of the
Justices of said Court at the Courthouse located at
60 Centre Street, New York, New York 10007, on
the 22nd day of June, 2017,
THE DWECK LAW FIRM, LLP
Attorneys for Plaintiffs
By:

/s/ JACK S. DWECK
JACK S. DWECK
10 Rockefeller Plaza, Suite 1015
New York, NY 10020
212-687-8200

38a

39a

Exhibit F

40a
SUPREME COURT OF THE
STATE OF NEW YORK
NEW YORK COUNTY
PRESENT: GEOFFREY D.S. WRIGHT
Justice
PART 47
INDEX NO. 150457/16
MOTION DATE ____
MOTION SEQ. NO. 1
MOTION CAL. NO. ____
IN THE MATTER

OF ,

THE APPLICATION OF KATHLEEN K. JOHNSON AND
JUDITH WOODWARD, Individually And As Trustees
Of The Annabell W, Palmer Family Trust To
Examine Certain Records Of The Union Bank Of
Switzerland And To Obtain Deposition Upon Oral
Examination To Aid In Preparation Of Complaint
The following papers, numbered 1 to 2 were read on
this motion to/for ore-complaint discovery
PAPERS NUMBERED
Notice of Motion/ Order
to Show Cause —
Affidavits — Exhibits
Answering Affidavits —
Exhibits

1

41a
Replying Affidavits
Memoranda
Other

2

Supporting affidavit
Cross-Motion:

o Yes

⌧ No

Upon the foregoing papers, it is ordered that this
motion by the Petitioners for pre-complaint discovery is denied. The Petitioners have already composed and filed a complaint against the bank in
question, under index #693606/16, and can obtain
any further discovery in that action.
Dated: Aug 24, 2016

/s/ GEOFFREY D. WRIGHT
A.J.S.C.

Check one:
o FINAL DISPOSITION
⌧ NON-FINAL DISPOSITION
Check if appropriate:
o DO NOT POST

42a

Exhibit G

43a
SUPREME COURT OF THE
STATE OF NEW YORK
NEW YORK COUNTY
PRESENT: GEOFFREY D.S. WRIGHT
Justice
PART 47
INDEX NO. 150457/16
MOTION DATE ____
MOTION SEQ. NO 2
MOTION CAL. ____
In The Matter Of The Application Of KATHLEEN K.
JOHNSON and JUDITH WOODWARD, Individually And
As Trustees Of The Annabell M. Palmer Family
Trust To Examine Certain Records of UBS AG And
To Obtain Deposition Upon Oral Examination To
Aid Preparation Of A Complaint
The following papers, numbered 1 to 4 were read on
this motion to/for reargue prior determination
PAPERS NUMBERED
Notice of Motion/ Order
to Show Cause —
Affidavits – Exhibits

1

Answering Affidavits —
Exhibits

2

44a
Replying Affidavits
Memoranda
Cross-Motion:

3, 4
o Yes

⌧ No

Upon the foregoing papers, it is ordered that this
motion to by the Petitioner reargue the denial of
their petition for pre-complaint discovery pursuant
to CPLR 3102, is granted solely to the extent of
granting reargument, and on reargument I adhere
to the prior decision, a/p/o.
Dated: Nov 23, 2016

/s/ GEOFFREY D. WRIGHT
A.J.S.C.

Check one:
o FINAL DISPOSITION
⌧ NON-FINAL DISPOSITION
Check if appropriate:
o DO NOT POST

45a
SUPREME COURT OF THE
STATE OF NEW YORK
COUNTY OF NEW YORK: Part 47
Index #150457/16
Motion Cal. #
Motion Seq. #2
In The Matter If The: APPLICATION OF KATHLEEN K.
JOHNSON AND JUDITH WOODWARD, Individually And
As Trustees Of The Annabel M. Palmer Family
Trust To Examine Certain Records Of UBS AG And
To Obtain Deposition Upon Oral Examination To
Aid In Preparation Of A Complaint
DECISION/ORDER
Pursuant To Present:
Hon. Geoffrey Wright Judge, Supreme Court
Recitation, as required by CPLR 2219(a), of the
papers considered in the review of this Motion to:
reargue prior decision
PAPERS

NUMBERED

Notice of Petition/Motion,
Affidavits & Exhibits Annexed

1

Order to Show Cause,
Affidavits & Exhibits

46a
Answering Affidavits &
Exhibits Annex

2

Replying Affidavits &
Exhibits Annexed
Cross-motion &
Exhibits Annexed
Supporting Affidavits
Memoranda

3, 4

Upon the foregoing cited papers, the Decision/
Order on this Motion is as follows:
The Petitioner moves to reargue my decision of
August 24, 20167, which denied its petition for precomplaint discovery, pursuant to CPLR 3102. That
decision was based in part on notification received
from the Respondent that the Petitioners had commenced a separate action against the Respondent
UBS AG. This motion is supported by a letter written by counsel for UBS AG, in which he promised to
move to dismiss the complaint.
The potential of summary dismissal is a risk of
all complainants and petitioners take. In this case,
however, the original petition does not set out what
facts that it does not already has, and what is needed to determine if it has a claim against the bank.
For instance, the Petitioners know that name of the
original depositor of the account in question [Ann
Palmer]. They know when the deposit was made
[August 24, 1998], and know the account number
[CQUE 266.630]. They have an acknowledgment of
receipt of the deposit by the bank, and a dispute in

47a
that acknowledgment of the purpose of the transfer
of funds (see ex. 4, to the petition). There is, of
course, a disagreement regarding the purpose of
the transfer. The Petitioners have not identified
any fact they might need beyond what is recited
above in order to compose a complaint, or what
information will not be preserved for trial.
In the MATTER OF UDDIN V. NEW YORK CITY TR.
AUTH., 27 A.D.3d 265, 810 N.Y.S.2d 198 (1st Dep’t
2006), the Appellate Division of this Department
ruled “pre-action disclosure may be appropriate to
preserve evidence or to identify potential defendants, it may not be used to ascertain whether a
prospective plaintiff has a cause of action worth
pursuing.”
The dispute here is the purpose of the acknowledged deposit, and the Respondent appears to be in
possession of whatever documents exist to demonstrate the fact of the account and its number.
Therefore, any further discovery should take place
in the context of the pending law suit, once the
complaint is served.
The motion is granted solely to the extent of permitting reargument, and on such reargument, I
adhere to my prior determination.
Dated: November 23, 2016 /s/ GEOFFREY D. WRIGHT
A.J.S.C.

48a

Exhibit H

49a
RYAN WIRTH
8-24-98
Name of Bank:

Union Bank of Switzerland.

Bank address:

CH-2501 Biel
Switzerland

Clearing number [REDACTED]
Account number

[REDACTED]

SWIFT Code

[REDACTED]

RYAN WIRTH
PLEASE WIRE TRANSFER $4,000,000.00 FOUR
MILLION DOLLARS TO SUBJECT BANK
ABOVE.
MY ACCOUNT NUMBER IS [REDACTED]
MY SOCIAL SECURITY NUMBER IS [REDACTED]
BIRTH DATE 1-2-16
/S/ ANN PALMER
TELEPHONE HUMBER 562-494-7002
PLEASE FAX COPY OF SWIFT WIRE INSTRUCTIONS

50a

51a

52a
[LETTERHEAD

OF

CITIBANK]

July 22, 2005
Ann Palmer
82 Park Avenue
Long Beach, CA 90803
Reference # [REDACTED] AYW/
ACCOUNT # [REDACTED]
Dear Ann Palmer:
Thank you for your inquiry on July 21, 2005,
regarding your account number 50071000. We have
completed our research and the results are as follows:
Our records indicate that an outgoing wire transfer
was sent on August 24, 1998, for $4,000,000.00.
The funds were sent to Union Bank of Switzerland
for the benefit of Ann Palmer account number
CQUE 266.630. The Global identification number
for the transfer is [REDACTED].
If you have any questions, please call CitiPhone
Customer Service at 1-800-627-3999. In the Puerto
Rico area, please call 1-800-360-2484. Speech or
hearing impaired customers may call our text telephone service at 1-800-945-0258. Representatives
are available to assist you 24 hours a day, 7 days a
week. You may also access your account information online at www.citibankonline.com.

53a
Thank you for banking with Citibank. We appreciate the opportunity to serve you.
Sincerely,
/S/ D. GRANADOS
D. Granados
Client Research

54a

Exhibit I

55a
ASSIGNMENT OF INTEREST
IN BANK ACCOUNT
ANN PALMER, as Assignee, does hereby assign,
transfer, convey and set over unto ANNABELL M.
PALMER, as Trustee of The Annabell M. Palmer
Family Trust, under Trust Agreement dated March
12, 1986, as Assignee, all of the Assignor’s right,
title and interest in and to that Bank Account/
Deposit at Union Bank of Switzerland, Beil
Switzerland, being account number [REDACTED ]
which deposit was originally in the sum of
$4,000,000 U.S., together with all interest accrued
thereon.
Dated: January 14, 2003

/s/ ANN PALMER
Ann Palmer

56a

Exhibit J

57a

58a

59a

60a

61a

62a

63a

64a
Johnson – UBS California Offices
•

Fresno
Fig Garden Financial Center, Fresno CA
93704
34.24 km

o

Only branch available here

•

Merced
860 W Olive Street, Merced CA 95348
112.07 km

o

Only branch available here

•

Bakersfield
9201 Camino Media, Bakersfield CA 93311
162.14 km

o

Only branch available here

•

Carmel
200 Clock Tower Place, Carmel CA 93923
223.5 km

o

Only branch available here

65a
•

San Jose
50 West San Fernando Street, San Jose CA
95113
227.88 km

o

Only branch available here

•

Los Gatos
750 University Ave., Los Gatos CA 95032
232.64 km

o

Only branch available here

•

Palo Alto

o

Only branch available here

•

San Francisco
455 Market Street, San Francisco CA 94105
286.76 km

o

Only branch available here

•

San Francisco
555 California Street, San Francisco CA
94104
287.21 km

o

Only branch available here

66a
•

Westlake Village / T
3011 Townsgate Road, Westlake Village / T
CA 91361
296.94 km

o

Only branch available here

•

Mill Valley
2 Belvedere Place, Mill Valley CA 94941
300.58 km

o

Only branch available here

•

Reno
6900 South McCarran Boulevard, Reno NV
89509
301.92 km

o

Only branch available here

•

Encino
15821 Ventura Boulevard, Encino CA 91436
303.79 km

o

Only branch available here

•

Napa
703 Trancas Street, Napa CA 94558
306 km

o

Only branch available here

67a
•

Pasadena
200 South Los Robles Avenue, Pasadena CA
91101
315.14 km

o

Only branch available here

•

Beverly Hills
131 South Rodeo Drive, Beverly Hills CA
90212
315.3 km

o

Only branch available here

•

Century City
1999 Avenue of the Stars, Century City CA
90067
315.7 km

o

Only branch available here

•

Century City
2000 Avenue of the Stars, Century City CA
90067
315.7 km

o

Only branch available here

68a
•

Los Angeles
2000 Avenue of the Stars, Los Angeles CA
90067
315.7 km

o

Only branch available here

•

Los Angeles
515 South Flower Street, Los Angeles CA
90071
320.9 km

o

Only branch available here

•

Brea
One Pointe Drive, Brea CA 92821
346.24 km

o

Only branch available here

•

Seal Beach
3030 Old Ranch Parkway, Seal Beach CA
90740
355.4 km

o

Only branch available here

•

Riverside
3390 University Avenue, Riverside CA 92501
362.27 km

o

Only branch available here

69a
•

Redlands
300 East State Street, Redlands CA 92373
364.34 km

o

Only branch available here

•

Las Vegas
10801 W Charleston Boulevard, Las Vegas NV
89135
371.98 km

o

Only branch available here

•

Newport Beach
888 San Clemente Drive, Newport Beach CA
92660
377.81 km

o

Only branch available here

•

Irvine
20 Pacifica, Irvine CA 92618
379.35 km

o

Only branch available here

•

Henderson
2475 Village View Drive, Henderson NV
89074
395.83 km

o

Only branch available here

70a
•

Indian Wells
75-280 Highway 111, Indian Wells CA 92210
439.11 km

o

Only branch available here

•

San Diego
17180 Rancho Bernardo Center, San Diego CA
92128
468.78 km

o

Only branch available here

•

San Diego
12275 El Camino Real, San Diego CA 92130
470.64 km

o

Only branch available here

•

San Diego
12220 El Camino Real, San Diego CA 92130
471.07 km

o

Only branch available here

•

La Jolla
1200 Prospect Street, La Jolla CA 92037
478.77 km

o

Only branch available here

71a
•

San Diego
600 West Broadway, San Diego CA 92101
496.2 km

o

Only branch available here

72a

73a

74a

Exhibit K

75a
SUPREME COURT OF THE
STATE OF NEW YORK
COUNTY OF NEW YORK
Index No. ____/2010 E
Date Purchased: February 8, 2010
Plaintiff designates New York County
as the place of trial.
UBS AG,
Plaintiff,
—against—
HIGHLAND CAPITAL MANAGEMENT L.P. and
HIGHLAND CREDIT STRATEGIES MASTER FUND, L.P.,
Defendants.

SUMMONS
TO THE ABOVE-NAMED DEFENDANT:
YOU ARE HEREBY SUMMONED to answer the complaint in this action and to serve a copy of your
answer, or, if the complaint is not served with this
summons, to serve a notice of appearance, on
Plaintiff’s Attorneys within twenty (20) days after
the service of this summons, exclusive of the day of
service (or within thirty (30) days after the service
is complete if this summons is not personally delivered to you within the State of New York); and in

76a
case of your failure to appear or answer, judgment
will be taken against you by default for the relief
demanded in the complaint.
The basis of the venue designated is the residence of Plaintiff, who resides in New York County,
at 1285 Avenue of the Americas, New York, New
York 10019.
Dated: New York, New York
February 8, 2010
SCHINDLER COHEN & HOCHMAN LLP
By:

/s/ JONATHAN L. HOCHMAN
Jonathan L. Hochman
Scott W. Bulcao
100 Wall Street, 15th Floor
New York, New York 10005
(212) 277-6300 (phone)
(212) 277-6333 (facsimile)
Attorneys for Plaintiff UBS AG
Address of Defendants:
Highland Capital Management L.P.
9 West 57th Street
New York, New York 10019
Highland Credit Strategies Master Fund, L.P.
52 Reid Street
Hamilton HM12, Bermuda

77a
SUPREME COURT OF THE
STATE OF NEW YORK
COUNTY OF NEW YORK
Index No. ________
UBS AG,
Plaintiff,
–against–
HIGHLAND CAPITAL MANAGEMENT L.P. and
HIGHLAND CREDIT STRATEGIES MASTER FUND, L.P.,
Defendants.
COMPLAINT
Plaintiff UBS AG (“UBS”), by its attorneys
Schindler Cohen & Hochman LLP, for its Complaint against Highland Capital Management L.P.
(“Highland”) and Highland Credit Strategies Master
Fund, L.P. (“Highland Credit”) (with Highland,
“Defendants”) alleges as follows upon knowledge as
to its own acts and upon information and belief as
to all other matters:
NATURE OF THE ACTION
1. UBS comes before this Court because Defendants breached an agreement to purchase a distressed loan from UBS’ Stamford Branch. On
November 29, 2007, UBS and Highland entered

78a
into a binding and enforceable agreement pursuant
to which Highland agreed to purchase from UBS a
distressed loan made to Gainey Corporation. The
material terms of the agreement were memorialized in an industry-standard Loan Syndications
and Trading Association (“LSTA”) trade confirmation (the “Trade Confirmation”), which was executed by Defendants, but which Defendants refused to
honor. Rather than adhere to their contractual
obligation and settle their trade with UBS, Defendants delayed closing as the value of the loan
dropped substantially, ultimately compelling UBS
to mitigate its damages by selling the loan to
another buyer at a substantial loss–a loss which
should be borne by Defendants.
2. As a result of Defendants’ breach, UBS has
suffered damages of no less than $2.1 million.
PARTIES
3. UBS AG is a corporation organized under the
laws of the country of Switzerland, with an office
located at 1285 Avenue of the Americas, New York,
New York.
4. Highland is a limited partnership organized
under the laws of the State of Delaware, with an
office located at 9 West 57th Street, New York,
New York. Highland is the sole member of Highland Credit.
5. On information and belief, Highland Credit is
a hedge fund limited partnership organized under
the laws of Bermuda.

79a
JURISDICTION AND VENUE
6. The Court has jurisdiction over Defendants
pursuant to N.Y. CPLR §§ 301 and 302 because
Highland is physically present in the State and, on
information and belief, Defendants regularly conduct business in this State and County.
7. Venue is proper in this Court pursuant to N.Y.
CPLR § 503 because UBS resides in this County.
FACTUAL BACKGROUND
A. UBS And Highland Orally Enter Into A
Binding Agreement To Execute A Trade
8. On November 29, 2007 (the “Trade Date”),
UBS and Highland entered into an oral agreement
pursuant to which Highland agreed to purchase
from UBS a distressed loan made to Gainey Corporation (the “Agreement”).
9. As is customary in the secondary market for
distressed loans, the Agreement was entered into
on the Trade Date telephonically. By phone, UBS
and Highland agreed to all of the

80a

Exhibit L

81a
Attorney Group No. 135
Index No.

Year 2015

SUPREME COURT OF THE
STATE OF NEW YORK
COUNTY OF NEW YORK
In the Matter of the Application of
UBS AG
Petitioner,
–against–
THE TAX COMMISSION OF THE CITY OF NEW YORK
and THE COMMISSIONER OF FINANCE OF THE CITY OF
NEW YORK
Respondents.

PETITION
Taxes of 2015-16
Block

Lot

Address

73043

35

1285 Avenue of the Americas

TO THE SUPREME COURT
STATE OF NEW YORK:

OF THE

The Petitioner above named respectfully shows
and alleges that:

82a
1. At all times hereinafter mentioned, the petitioner was and still is a domestic corporation and
the Owner of certain real property in the Borough
of Manhattan, City of New York, which real property is described in Schedule A hereto annexed and
made part of hereof, by block and lot number by
which the said property was designated on the tax
maps of the City of New York for the fiscal year
July 1, 2015 to June 30, 2016.
UBSREUC
2. During the time provided for by law one of the
assessors of the Property Division of the Department of Finance of the City of New York, an agency
under the jurisdiction of the Commissioner of
Finance, in accordance with law, did assess the said
real property described in Schedule A and caused
the assessed valuations to be entered in detail in
the books kept in the office of said Property Division as shown in columns “3” and “4” of Schedule A.
3. Between January 15, 2015 and March 1, 2015,
the time that said books were open for public
inspection, or such further period as provided by
law, petitioner, claiming and being aggrieved by
said assessed valuation of said real property, duly
made application in writing under oath to the Tax
Commission of the City of New York as provided by
law to have such assessments corrected, said Tax
Commission having been duly constituted by law to
review and correct all assessments of real property
for taxation in the City of New York. In said application petitioner claimed that the assessments

83a
were erroneous by reason of overvaluation (excessive), misclassification, inequality (unequal) and
illegality (unlawful) and demanded appropriate
relief.
4. Thereafter, on or about May 25, 2015, the Tax
Commission, by operation of law, duly rendered a
final determination on said application, and the
assessments were confirmed as final in the
amounts shown in columns “3” and “4” of Schedule
A hereof.
5. Thereafter, upon information and belief, the
assessment rolls of the real property subject to taxation in the City of New York for the fiscal year
July 1, 2015 to June 30, 2016 were prepared, certified and delivered to the City Council of the City of
New York as required by law, which assessment
rolls contained the said assessments upon petitioner’s said real property as shown in columns “3” and
“4” of Schedule A and the City Council proceeded
thereon for the levying and collection of taxes.
6. The said assessments are excessive in that (a)
the assessed valuation exceeds the full value of the
real property and the correct full value and the
sum for which the said real property would sell
under ordinary circumstances on the statutory taxable status date is shown as the claimed value in
Column “5” of Schedule A and the extent of overvaluation is the total actual assessment specified for
each tax lot (Column “4” of Schedule A) less the
claimed correct full value specified for each tax lot
(as set forth in Column “5” of Schedule A); (b) the

84a
actual assessment and/or transition assessment is
excessive in that the taxable assessed value fails to
comply with the limitations of increases and methods of computation set forth in Real Property Tax
Law Section 1805; (c) the assessments are excessive in that said real property failed to receive all
or a portion of an exemption to which said real
property or the owner thereof is entitled pursuant
to the law authorizing the exemption; and (d) the
assessments are excessive in that the property
failed to receive a land only “progress assessment”
as a building in the course of construction pursuant
to Administrative Code Section 11-209.
7. Where the subject property is fully or partially
exempt from taxation under RPTL Section 489 and
the Administrative Code of the City of New York,
Section 11-243, the assessment has been unlawfully increased in excess of the assessment of the
previous existing dwelling appearing on the assessment rolls after the taxable status date immediately preceding the commencement of the alteration
and improvements plus the value of the land and
any improvements, other than those made under
the provisions of RPTL Section 489 and Administrative Code Section 11-243.
8. The said assessments are erroneous by reason
of inequality and are unequal in that they have
been made at a higher proportionate valuation
than the assessed valuations of (a) other real property on the assessment rolls of the city for the same
year, and/or (b) other real property within the same
class on the same roll by the same officer. The

85a
extent of such inequality, and the extent to which
said assessments are unequal is equal to the difference between the actual total assessed value as set
forth in Column “4” of Schedule A, and 15% of the
amount specified as the claimed value for each tax
lot set forth in Column “5” of Schedule A.
9. RPTL Section 720(3) is unlawful, improper and
unconstitutional in that it improperly limits the
scope of evidence to be adduced by petitioner.
10. The assessments are illegal and unlawful in
that they were made contrary to law.
11. The assessments are illegal and unlawful in
that the property should have been wholly or partially exempt from taxation.
12. The assessments are illegal and unlawful in
that where a notice increasing the assessments of
the subject property was sent during or subsequent
to the time the books of the annual record of
assessed valuation remained open for public
inspection, the notice purporting to increase the
assessments is unlawful, improper, defective and
void in that it fails to comply with New York City
Charter Section 1512 and Administrative Code
Section 11-211; Charter Section 1512 is unlawful,
improper and unconstitutional in that it discriminates in favor of residential versus commercial
property and fails to provide adequate notice of an
increased assessment, and unconstitutionally
vague in that it fails to adequately define what is
meant by residential real estate.

86a
13. At all times herein relevant the Constitution
of the State of New York, Article 8, Section 10, provides that real estate tax revenues of the City of
New York in any fiscal year, exclusive of debt service requirements, shall not exceed 2-1/2% of the
average full value of its taxable real estate for the
latest five fiscal years. That by discriminating
between types of properties, respondents have
reduced the value of “taxable” real estate so that
the tax rate exceeds the constitutional limitations
by reason of their having effectively granted
exemptions from taxation to certain premises. By
reason thereof, petitioner has been compelled to
pay more than the constitutionally permissible tax
rate.
14. Where petitioner’s property is a cooperative
or condominium, the assessment has been made
contrary to RPTL Section 581 and/or RPTL Section
339-y.
15. These assessments and all of the assessments
on the assessment rolls of the City of New York are
illegal and unlawful in that Section 305(2) of the
Real Property Tax Law requires that all real property in each assessing unit shall be assessed at a
uniform percentage of value and that the assessments on said roll are not assessed at such uniform
percentage.
16. Where the assessment of the subject parcel
has been set based on 45% of gross sales price, the
assessment is unlawful in that parcels whose
assessment is based on 45% of gross sales price

87a
constitute an unlawful and separate class of real
property which is not assessed at a uniform percentage of value required by RPTL Section 305(2),
and which class is not authorized by RPTL Section
1802, and the Constitution of the State of New
York and of the United States.
17. The assessments are illegal and unlawful in
that respondents have wrongfully denied petitioner
a hearing to correct the assessment in question
pursuant to Administrative Code, Section 11-208.1.
Such denial is unconstitutional on its face and as
applied herein.
18. Petitioner’s property has been misclassified
as being in class 2, 2A, 2B, 2C, 3, 4 or 4A instead of
the appropriate class for petitioner’s property; the
class designation of petitioner’s parcel results in an
incorrect allocation of the parcel’s assessed valuation between two or more classes; the criteria used
by respondents for determination of tax class is
arbitrary, capricious and unlawful.
19. The denial of full and appropriate amount of
exemption under RPTL Section 421-A and/or RPTL
Section 489 or any applicable statute granting
exemption to the subject property is arbitrary,
capricious, contrary to law and makes the assessment unequal, unlawful and excessive.
20. The Tax Commission has arbitrarily and
capriciously issued forms and rules of procedure
and has denied required hearings of petitioner’s
property in violation of Section 163, 164 and 1041
of the New York City Charter and Section 11-216 of

88a
the New York City Administrative Code. Therefore
the assessment should be declared null and void
and stricken from the assessment roll nunc pro
tunc.
21. By reason of the aforesaid excessive, unequal,
erroneous, unlawful, and illegal assessments, petitioner has been aggrieved and will be injured
thereby, and will be compelled to pay more than its
proper share of the taxes of the City of New York.
22. Reference herein to “petitioner” shall be
deemed to include the petitioner named herein and
all of said petitioner’s predecessors and/or successors in interest.
23. The property’s transition assessments are
excessive in that they have been (a) calculated in a
manner inconsistent with the provisions of Real
Property Tax Law, and/or (b) calculated in a manner inconsistent with the transitional assessment
calculation of other properties in the City of New
York.
24. No previous application has been made for
the relief herein sought to this or any other Court
or Judge.
WHEREFORE, your petitioner requests that the
Supreme Court review and correct on the merits
the aforementioned final determination of the Tax
Commission on the grounds set forth in this petition, and that the Court take evidence to enable
your petitioner to show the unjust, erroneous, illegal, unlawful, excessive and unequal assessments
of said real property and its misclassification to the

89a
end that the said assessments may be reduced to
the sum for which the said property would sell
under ordinary circumstances for land and
improvements, and to a valuation proportionate to
the assessments of other real property assessed on
the same rolls and/or other real property of the
same class assessed on the same rolls for the same
year, so that equality of assessments will result,
and that all properties shall be assessed at a uniform percentage so that said assessments will not
be unequal, and that equality of assessments will
result, and so that the assessments not be contrary
to law, and so that any excessive transition assessments for subsequent tax years be reduced in
accordance with law and for such other and further
relief as the Court may deem proper, together with
costs.
Dated: New York, N.Y., August 5, 2015
Petitioner: UBS AG
By: /s/ GEORGE CONOMOS
George Conomos, Managing Director (Title)
Marcus & Pollack LLP, Attorneys for Petitioner
708 Third Avenue, 11th Floor, New York, NY 10017
(212) 490-2900
By: /s/ Joel R. Marcus
Joel R. Marcus, Attorney

90a
STATE OF Connecticut
COUNTY OF FAIRFIELD

)
) ss:

George Conomos, being duly sworn, deposes and
says:
That deponent is Managing Director (Title) of UBS
AG, the Petitioner herein; that deponent has read
the foregoing Petition and knows the contents
thereof; and that the same is true to deponent’s
own knowledge, except as to the matters therein
stated to be alleged upon information and belief,
and as to those matters deponent believes it to be
true.
This verification is made by deponent because
said Petitioner is a domestic corporation, and
deponent an officer thereof, to wit its Managing
Director (Title).
Sworn to before me this
25 day of September, 2015.

/s/ GEORGE CONOMOS
George Conomos

Notary Signs /s/ YARA BETANCOURT
Notary Public or Commissioner
of Deeds
YARA BETANCOURT
NOTARY PUBLIC OF NEW JERSEY
I.D. # 2415574
My Commission Expires 12/16/2016

91a
SCHEDULE A
For the period commencing July 1, 2015 and ending
June 30, 2016
1

2

3

4

5

ASSESSMENT
Block

Lot

Land
($)

73043

35

0

Land &
Improvements
($)
5,130,000

Claimed
Value
($)
1

92a
Attorney Group No. 135
Index No.

Year 2015

SUPREME COURT OF THE
STATE OF NEW YORK
COUNTY OF NEW YORK
In the Matter of the Application of
UBS AG
Petitioner,
–against–
THE TAX COMMISSION OF THE CITY OF NEW YORK
and THE COMMISSIONER OF FINANCE OF THE CITY OF
NEW YORK
Respondents.
PETITION FOR REVIEW OF REAL
PROPERTY ASSESSMENTS
Marcus & Pollack LLP
Attorney for Petitioner
Office & P.O. Box
708 Third Avenue, 11th Floor
New York, NY 10017
(212) 490-2900
M-73043-35

93a

Exhibit M

94a
SUPREME COURT OF THE
STATE OF NEW YORK
COUNTY OF NEW YORK
Index No.
Date Purchased: April ___, 2008
Filed April 17, 2008
FINANCIAL STRUCTURES LIMITED and
ARROWOOD INDEMNITY COMPANY,
Plaintiffs,
–against–
UBS AG and UBS SECURITIES LLC,
Defendants.

SUMMONS
Plaintiffs designates New York County as the
place of trial. Each defendant maintains its principal New York place of business in New York County.
CPLR § 503(a),(c).
TO THE ABOVE NAMED DEFENDANTS:
YOU ARE HEREBY SUMMONED to answer the Complaint in this action and to serve a copy of your
Answer, or if the Complaint is not served with this
Summons, to serve a notice of appearance, on the
Plaintiffs’ Attorneys within 20 days after the serv-

95a
ice of this Summons, exclusive of the day of service
(or within 30 days after the service is complete if
this Summons is not personally delivered to you
within the State of New York); and in case of your
failure to appear or answer, judgment will be taken
against you by default for the relief demanded in
the Complaint.
Dated: New York, New York
April 17, 2008
SONNENSCHEIN NATH & ROSENTHAL LLP
By: /s/ MICHAEL H. BARR
Michael H. Barr
Richard M. Zuckerman
Douglas B. Brasher
1221 Avenue of the Americas
New York, NY 10020
Phone: (212) 768-6700
Fax: (212) 768-6800
Attorneys for Plaintiffs
Financial Structures Limited and
Arrowood Indemnity Company
To:
UBS AG
299 Park Avenue
New York, New York 10171.

96a
UBS Securities LLC
299 Park Avenue
New York, New York 10171

97a

Exhibit N

98a
RECORDING REQUESTED BY
AND WHEN RECORDED MAIL TO:
DURABLE POWER OF ATTORNEY
NOTICE: THE POWERS GRANTED BY THIS
DOCUMENT ARE BROAD AND SWEEPING.
THEY ARE EXPLAINED IN THE UNIFORM
STATUTORY FORM POWER OF ATTORNEY ACT
(CALIFORNIA PROBATE CODE SECTIONS 44004465). IF YOU HAVE ANY QUESTIONS ABOUT
THESE POWERS, OBTAIN COMPETENT LEGAL
ADVICE. THIS DOCUMENT DOES NOT
AUTHORIZE ANYONE TO MAKE MEDICAL AND
OTHER HEALTHCARE DECISIONS FOR YOU.
YOU MAY REVOKE THIS POWER OF ATTORNEY IF YOU LATER WISH TO DO SO.
I, ANNABELL M. PALMER, Trustee under Trust
Agreement dated March 12, 1986. The Annabell M.
Palmer Family Trust, appoint KATHLEEN K. JOHNSON
as my agent (attorney-in-fact) to act for me in any
lawful way with respect to the following initialed
subjects:
TO GRANT ALL OF THE FOLLOWING POWERS,
INITIAL THE LINE IN FRONT OF (N) AND
IGNORE THE LINES IN FRONT OF THE OTHER
POWERS.
TO GRANT ONE OR MORE, BUT FEWER THAN
ALL, OF THE FOLLOWING POWERS, INITIAL
THE LINE IN FRONT OF EACH POWER YOU
ARE GRANTING.

99a
TO WITHHOLD A POWER, DO NOT INITIAL
THE LINE IN FRONT OF IT. YOU MAY, BUT
NEED NOT, CROSS OUT EACH POWER WITHHELD.
INITIAL
____
____
____
____
____

(A)
(B)
(C)
(D)
(E)

____ (F)
____ (G)
____ (H)
____ (I)
____ (J)
____ (K)

____ (L)
____ (M)
____ (N)

____ (O)

Real property transactions.
Tangible personal property transactions.
Stock and bond transactions.
Commodity and option transactions.
Banking and other financial institution
transactions.
Business operating transactions.
Insurance and annuity transactions.
Estate, trust, and other beneficiary
transactions.
Claims and litigation.
Personal and family maintenance.
Benefits from social security, medicare,
medicaid, or other governmental programs,
or civil or military service.
Retirement plan transactions.
Tax matters.
To direct, negotiate, settle and/or dismiss
any and all claims and litigation she has
against William Joseph (Bill) Herisko
now pending in Los Angeles County
Superior Court and United States
District Court.
ALL OF THE POWERS LISTED ABOVE

YOU NEED NOT INITIAL ANY OTHER LINES IF
YOU INITIAL LINE (O).

100a
SPECIAL INSTRUCTIONS:
ON THE FOLLOWING LINES YOU MAY GIVE
SPECIAL
INSTRUCTIONS
LIMITING
OR
EXTENDING THE POWERS GRANTED TO
YOUR AGENT.
_______________________________________________
_______________________________________________
_______________________________________________
_______________________________________________
UNLESS YOU DIRECT OTHERWISE ABOVE,
THIS POWER OF ATTORNEY IS EFFECTIVE
IMMEDIATELY AND WILL CONTINUE UNTIL
IT IS REVOKED.
This power of attorney will continue to be effective even though I become incapacitated.
I agree that any third party who receives a copy
of this document may act under it. Revocation of
the power of attorney is not effective as to a third
party until the third party has actual knowledge of
the revocation. I agree to indemnify the third party
for any claims that arise against the third party
because of reliance on this power of attorney.
Signed this 29th day of April, 2004
/s/ ANNABELL M. PALMER
Annabell M. Palmer, Trustee
BY ACCEPTING OR ACTING UNDER THE
APPOINTMENT, THE AGENT ASSUMES THE
FIDUCIARY AND OTHER LEGAL RESPONSIBILITIES OF AN AGENT.

101a
ACCEPTANCE BY ATTORNEY IN FACT:
/s/ KATHLEEN K. JOHNSON
KATHLEEN K. JOHNSON
STATE

OF

COUNTY

CALIFORNIA

OF

LOS ANGELES

Dated: April 29, 2004

)
)
)

ss

On this 29th day of April, 2004, before me,
N ORMAN R ASMUSSEN , Notary Public, personally
appeared ANNABELL M. PALMER, personally known
to me (or proved to me on the basis of satisfactory
evidence) to be the person whose name is subscribed to the within instrument and acknowledged
to me that she executed the same in her authorized
capacity, and that by her signature on the instrument the person, or the entity upon behalf of which
the person acted, executed the instrument.
WITNESS my hand and official seal.
/s/ NORMAN RASMUSSEN
Notary Public
NORMAN RASMUSSEN
COMM. # 1266267
NOTARY PUBLIC, CALIFORNIA
LOS ANGELES COUNTY
My Comm. Expires June. 26, 2004
(SEAL)

102a

Exhibit O

103a
TRUST AGREEMENT
OF
THE ANNABELL M. PALMER FAMILY TRUST
THIS TRUST AGREEMENT is entered into this 12th
day of March, 1986, at Long Beach, California,
BETWEEN

ANNABELL M. PALMER, herein referred
to as
“Trustor”

AND

ANNABELL M. PALMER, herein referred
to as
“TRUSTEE”.

The Trustor has transferred, conveyed, assigned,
and delivered to the Trustee by appropriate instruments, duly executed and absolute in form, all of
the property described in Exhibit A, attached hereto and made a part hereof, which property is,
together with any other property which may hereafter be transferred to the Trustee, to be held
under this Trust, designated in this Trust Agreement as the “Trust Estate”.
No consideration was or will be given by the
Trustee for the transfer to it of any of the Trust
Estate. The Trustee accepts such title to the Trust
Estate as is conveyed to it hereunder, without liability or responsibility for the condition or validity
of such title, and the same has been or will be
transferred to the Trustee, IN TRUST, WITH POWER
OF S ALE , for the purposes of holding, managing,
controlling and disposing of the same and all

104a
income or other proceeds derived therefrom in the
manner, and for the use and purposes, and upon
the terms, trusts and conditions here in provided;
ARTICLE 1
This Trust shall be known as “THE ANNABELL M.
PALMER FAMILY TRUST”.
ARTICLE 2
The Trustor specifically reserves the following
rights and privileges:
A. RIGHT TO ADD PROPERTY TO TRUST
The Trustor, or any other person may, from time
to time, with the consent of the Trustee, add further property, real, personal, or mixed, to the Trust
Estate, or any part thereof, by transferring such
property to the Trustee hereunder by deed, assignment, bequest, or devise, and if so added, such
property shall be subject to the provisions hereof,
the same as if originally included hereunder.
B. RIGHT TO AMEND OR REVOKE TRUST
At any time, or times, by written notice to the
Trustee and upon payment of all sums due to it, the
Trustor may change any beneficiary, amend any
provisions hereof to such extent as may be acceptable to the Trustee, and/or revoke this Trust, in
whole or in part, or withdraw all or any of the
Trust Estate upon indemnifying the Trustee to its
satisfaction. Following the death of the Trustor,

105a
this Trust Agreement and the Trust or Trusts created herein, shall be irrevocable, and may not be
altered, amended, or modified in any way.
C. RIGHT TO DIRECT TRUSTEE IN INVESTMENTS
The Trustor, during her lifetime, may direct the
Trustee, in writing, to invest the Trust Estate in
specific securities, properties, or investments
and/or retain as part of the Trust Estate, any securities, properties or investments, at any time held
hereunder, for such lengths of time as such directions may provide. While the Trustor is also serving as Trustee, it shall not be necessary for the
Trustor to provide written directions with respect
to investments or otherwise. The Trustor may also
direct the Trustee, in writing, with respect to the
sale, encumbrance, lease, management, control, or
disposition of any property of the Trust Estate. The
Trustee shall not be liable for any loss sustained or
incurred by reason of its compliance with any written directions of Trustor. However, the Trustee
shall regularly review the Trust investments and
submit recommendations and/or suggestions to the
Trustor for consideration.
ARTICLE 3
The Trustee shall apply and distribute the net
income and principal of the Trust Estate in the following manner:

106a
A. DURING THE LIFETIME OF THE TRUSTOR
During the lifetime of the Trustor, the Trustee
shall make the following payments from the Trust
Estate:
1. The Trustee shall pay to or apply for the
benefit of the Trustor all of the net income
from the Trust Estate, together with such portion of the principal of the Trust Estate as
may be requested in writing by the Trustor.
2. If at any time the Trustor should be or
become incompetent, or should for any other
reason be unable to act on her own behalf, the
Trustee may, in its absolute discretion, pay to
or apply for the benefit of the Trustor, such
amounts of the principal of the Trust Estate,
up to the whole thereof, as the Trustee may
from time to time deem necessary or advisable;
B. UPON THE DEATH OF TRUSTOR
1. Upon the death of the Trustor, the successor
Trustee is authorized to reserve for and pay any
estate, inheritance, or other death taxes due by
reason of the Trustor’s death, and attributable to
taxable property contained in the Trust Estate, and
any expenses of last illness and funeral and the
just debts of Trustor, if any. Thereafter, the successor Trustee shall hold, administer, and distribute the income and principal of the Trust Estate as
herein provided. All references herein to “Trustee”
shall include a successor Trustee or Co-Trustees.

107a
2. The Trustee shall divide the then remaining balance of the Trust Estate (principal and accumulated income, if any) into separate trusts of equal
value (without being required to make a physical
segregation thereof) creating one such Trust of
each of Trustor’s daughters, namely KATHLEEN KAY
JOHNSON and JUDITH ANN WOODARD. In setting
aside property of which the various trusts will be
comprised, the Trustee may select cash, other property in kind, partly in cash and partly in kind, individual assets or groups of assets, or individual
interests, or other rights or ownership in common,
or jointly with others, including the trusts hereunder, all in the Trustee’s discretion. The Trustee
shall distribute and deliver to the Trustor’s daughters, in equal shares, all of the Trustor’s personal
effects, household furniture and furnishings, automobiles, pictures, books, works of art, jewelry,
watches, silverware, wearing apparel, sporting
goods, and all other articles of household or personal use or ornament.
3. The Trustee shall pay to or apply for the benefit
of each beneficiary all of the net income of her
Trust Estate, in monthly or other convenient
installments.
4. This Trust shall terminate on the earlier of (a)
ten (10) years following the date of death of the
Trustor, or (b) on the sale by the Trustee of all of
the shares of stock of Park International Corp., or
upon the dissolution of that corporation. At the termination, after the payment of all taxes and
administrative expenses, the Trustee shall then

108a
distribute and deliver the then remaining balance
of the Trust Estate to the Trustor’s daughters, in
equal shares.
5. In the event KATHLEEN KAY JOHNSON is then
deceased, her share shall go and be distributed to
JUDITH ANN WOODARD.
6. In the event JUDITH ANN WOODARD is then
deceased, her share shall be retained by the
Trustee upon the uses, trusts, purposes and conditions as herein provided for the benefit of Trustor’s
grand children, S TEPHANIE A NN W OODARD and
WILLIAM A. WOODARD, JR.
(a) The Trustee shall divide that portion of the
Trust Estate that would have been distributed to
JUDITH ANN WOODARD into separate trusts of equal
value (without being required to make a physical
segregation thereof) creating one such trust for
each living grandchild. In setting aside property of
which the various trusts will be comprised, the
Trustee may select cash, other property in kind,
partly in cash and partly in kind, individual assets
or groups of assets or individual interests or other
rights or ownership in common or jointly with others, including the trusts created hereunder, all in
the Trustee’s discretion.
(b) The Trustee shall accumulate, use, pay and
apply, to and for the proper care, maintenance,
support and education of each beneficiary such portion of the net income and/or principal of his or her
respective Trust Estate which, in the sole discretion of the Trustee, is necessary or advisable; Any

109a
income not so distributed shall become a part of the
principal of the Trust Estate.
(c) Upon the attainment by each grandchild of
age 30, the Trustee shall deliver and distribute to
each such beneficiary the then remaining balance
of his or her respective Trust Estate.
(d) In the event a beneficiary should die prior to
receiving complete distribution of his or her Trust
Estate as herein provided, then the remaining
principal of the Trust Estate set aside for the
deceased beneficiary shall thereupon go to augment the surviving grandchild’s share of the trust.
7. Upon any division or distribution of the Trust
Estate, in whole or in part, the Trustee may set
aside for or assign, transfer, or deliver to the person then entitled thereto, any part of the Trust
Estate, or any undivided interest in the Trust
Estate, or any portion thereof, in cash, or in kind,
or partly in cash and partly in kind, at such valuation as the Trustee may establish as the then fair
market value, or may, within a reasonable time,
convert the Trust Estate, or any portion thereof,
into cash and distribute the net proceeds to such
person, in the absolute discretion of the Trustee.
C. TERMINATION OF TRUST
The Trusts created hereunder, unless sooner terminated in accordance with the provisions hereof,
shall, in any event, cease and terminate twenty-one
(21) years from and after the death of the last survivor of all of the Trustor’s lineal descendants liv-

110a
ing at the date of the creation of this Trust. Upon
such termination, the shares of the entire Trust
Estate (principal and any income accrued or held
undistributed) shall be distributed and paid over to
the persons for whose benefit (income beneficiary)
such shares are then held.
ARTICLE 4
POWERS AND DISCRETION OF TRUSTEE
The Trustee shall have the following powers,
duties and discretion:
A. GENERAL POWERS
The Trustee shall have, subject always to the discharge of the Trustee’s fiduciary obligations, all
such power and is authorized to exercise all such
rights and privileges in the management of the
Trust Estate as if the absolute owner thereof,
including without limiting the generality of the
terms, the right:
1. To retain any property transferred, devised,
or bequeathed to the Trustee, or any undivided
interest therein, regardless of any lack of
diversification, risk, or nonproductivity;
2. To invest and reinvest the Trust Estate in
any property or undivided interests therein,
wherever located, including bonds, notes
secured or unsecured, stocks of corporations,
real estate or any interest therein and interests in Trusts, including Common Trust Funds,

111a
without being limited by any statute or rule of
law concerning investments by Trustee;
3. To lease, release, or to sell any trust property, for cash or on credit, at public or private
sale; to exchange any trust property for other
property; to grant options to purchase or
acquire any trust property; and to determine
the prices and terms of sales, leases, exchanges
and options; to buy and/or sell options on securities; and to purchase and sell securities on
margin;
4. To borrow money and to mortgage or pledge
any trust property; and to guarantee the debts
of the Trustor or any other person or corporation;
5. To keep any property in the name of a nominee with or without disclosure of any fiduciary
relationship;
6. To employ agents, attorneys, auditors,
depositories and proxies, with or without discretionary powers;
7. To employ investment counsel and/or manager, and to delegate authority to such an
investment counsel/manager to purchase, sell,
convey, convert or exchange any asset or assets
of the Trust Estate; the Trustee is further
authorized to utilize a brokerage firm to obtain
brokerage services and to allow the investment
counsel/manager to authorize the broker to
hold securities of the Trust Estate in street
name or in the name of a nominee; the Trustee

112a
is further authorized to purchase securities on
margin account and to pledge securities of the
Trust Estate as collateral therefor;
8. To make any distribution or division of the
trust property in cash or in kind, or both, and
to allot different kinds or disproportionate
shares of property or undivided interests in
property.
B. TRANSACTIONS
TRUSTOR

WITH

ESTATE

OF

Upon the death of Trustor, the Trustee may,
within its discretion, purchase assets from the
estate of the deceased Trustor at a fair value. The
propriety of the purchase, the amount of such
assets purchased, and the ascertainment of fair
value, shall be solely within the discretion of the
Trustee, and the Trustee shall incur no liability as
a result of such purchases, whether or not such
assets constitute investments which may legally be
made by the Trustee, or at its discretion, the
Trustee may loan money to the estate of a deceased
Trustor upon such terms as the Trustee and personal representative of the deceased Trustor may
agree.
C. PAYMENT OF TAXES
The Trustee may in its discretion pay out of the
Trust Estate any and all estate, inheritance and
other taxes (including interest and penalties thereon) arising by reason of Trustor’s death. Such taxes

113a
which are a charge against any beneficiaries hereunder shall be deducted from the interest of the
beneficiaries, respectively. The Trustee is authorized and directed to present for redemption in payment of Federal Estate Taxes any United States
government bonds held by the Trustee for such
purpose.
D. RESIGNATION OF TRUSTEE AND TRANSFER OF TRUST
1. Any Trustee may resign at any time upon
giving written notice to the Trustor, or to all
adult beneficiaries and/or to the guardians of
the estates of any minor or incompetent beneficiaries who may then be receiving income
hereunder.
2. Upon the death of the original Trustee, a
board of Trustees shall be appointed for the
purpose of administering the Trust Estate
and, in particular, voting the shares of stock
of P ARK I NTERNATIONAL C ORP ., a California corporation. The successor Co-Trustees are
J UDITH A NN W OODARD , K ATHLEEN K AY J OHN SON , W ILLIAM A. W OODARD , R OBERT L. C HAPUT
and N ORMAN R ASMUSSEN . In the event that
J UDITH , K ATHLEEN or W ILLIAM fail to qualify or
cease to act, for any reason, there shall be no
one appointed to replace them as Co-Trustees.
The survivors shall serve as the Co-Trustees.
In the event either R OBERT L. C HAPUT or
N ORMAN R ASMUSSEN , or their successors,
should fail to qualify or cease to act, for any

114a
reason, then the remaining or surviving of
those two shall nominate and appoint an independent, professional person to serve as a CoTrustee to fill the vacancy.
3. It is the Trustor’s intention that the Trust
and the voting of the shares of stock of the corporation shall be administered by Co-Trustees
which will also be the Board of Directors of the
corporation of five. The voting provisions will
be such that a majority of three will always be
required in order to take any action or to
refrain from taking action. It is the Trustor’s
intention and hope that this system will be to
the benefit of perpetuating the business of the
cor poration for the ultimate benefit of
Trustor’s family and will avoid disagreements
and misunderstandings with respect to the
management and operation of the corporation
and the Trust Estate.
4. A resigning Trustee shall transfer to its successor the entire Trust Estate and shall, thereupon, be discharged as Trustee of this Trust. A
successor Trustee shall succeed to all of the
rights, powers and trusts, and shall assume all
the obligations of a prior Trustee, provided,
however, that any successor Trustee taking
office hereunder shall have no responsibility
for the acts or omissions of any prior Trustee,
and no duty to audit or investigate the
accounts or administration of any prior
Trustee, nor, unless in writing it is requested
so to do by any person having a present or

115a
future beneficial interest under this Trust,
shall it have any duty to take action or obtain
redress for any breach of trust. After acceptance by the successor Trustee, the prior
Trustee shall promptly deliver all trust assets
in its possession to the successor Trustee
together with an accounting for all accounts
affecting the Trust since the date of its last
prior accounting.
5. At any time when a corporate Trustee is acting as Trustee of this Trust Estate, a majority
of the adult income beneficiaries and the
guardians of the Estates of any minor or
incompetent beneficiaries who may then be
receiving income may, by thirty (30) days’ written notice to the Trustee, remove such Trustee,
and designate a successor corporate Trustee
authorized to act in the State of California
whose gross resources exceed $10,000,000.
6. A Trustee who becomes incapacitated shall
cease to act as Trustee. The determination that
a Trustee is incapacitated and unable to act
properly as Trustee shall be made by a Court of
competent jurisdiction or by the filing with any
Co-Trustee, and the successor Trustee, of certification in writing by two licensed doctors of
medicine that the particular Trustee is unable,
because of then physical or mental condition,
to continue to act properly as a Trustee of this
Trust. In the event a Trustee has been so
determined to be incapacitated, such Trustee
may upon regaining his capacity be restored as

116a
Trustee, in place of his successor Trustee in the
same manner in which he was determined to be
incapacitated.
7. The Trustees shall be entitled to reasonable
compensation for their services and reim bursement for expenses incurred while acting
as Trustee.
ARTICLE 5
GENERAL PROVISIONS
A. COMPROMISE OF CLAIMS
The Trustee may, at its option, at any time in
connection with its management of the Trust
Estate, or the collection of any monies due or
payable to it as Trustee hereunder, compromise
any claims existing in favor of it or against the
Trust Estate.
B. BOND–LIABILITY OF TRUSTEE
No bond, or other security shall be required of
any Trustee in any jurisdiction. No individual
Trustee acting hereunder shall be liable or responsible for any mistake or error of judgment in the
administration of the Trust Estate resulting in loss
to the estate by reason of investment or otherwise,
save only for willful misconduct or fraud. A corporate Trustee acting hereunder shall be liable or
responsible only to the extent required by law.

117a
C. SPENDTHRIFT PROVISION
The interest of any beneficiary in the principal or
income of this Trust shall not be subject to the
claims of his or her creditors, or others, or liable to
attachment, execution, or other process of law, and
no beneficiary shall have any right to encumber,
hypothecate, or alienate his or her interest in the
Trust in any manner. The Trustee may, however,
deposit to any bank designated by the beneficiary
to his or her credit, income, or principal payable to
such beneficiary.
D. INCOME ON TRUST PROPERTY
Income accrued or unpaid on trust property
shall, when received into the Trust, be treated as
any other income. Income accrued or in the hands
of the Trustee for payment to an income beneficiary
at the termination of his interest or estate under
this. Trust shall go to the beneficiaries entitled to
the next succeeding interest in the proportions in
which they take such interest. The Trustee shall
not be required to prorate taxes and other current
expenses to the date of termination.
E. PAYMENTS FOR BENEFIT OF A BENEFICIARY
The Trustee may apply payments for the benefit
of any beneficiary, or make payments to any beneficiary under disability to the guardian of the person of the beneficiary or to the parent of the
beneficiary, if a minor. Sums necessary for support
and education may be paid directly to minor bene-

118a
ficiaries, who, in the judgment of the Trustee, have
attained sufficient age and discretion to render
it probable that the monies will be properly
expended.
F.

PRINCIPAL AND INCOME LAW

Ascertainment of income and principal shall be
determined in accordance with the California Uniform Principal and Income Act from time to time
existing except to the extent that such is silent,
and then such matter shall be determined by the
Trustee.
G. ALLOCATION OF CHARGES
The Trustee may pay out of principal or income,
or partially out of each in such shares as it may
determine, property taxes, assessments, charges,
attorneys’ fees and expenses incurred in the
administration or protection of this Trust. This discretion may be exercised not only in the interest of
the Trust Estate, but for the benefit of any beneficiary. The income remaining after such expenditures as the Trustee shall elect to pay therefrom
shall constitute net income.
H. DEFINITIONS OF ISSUE AND CHILDREN
In this instrument, the term “issue” shall refer to
lawful lineal descendants of all degrees, and the
terms “child”, “children”, and “issue” shall include
adopted children who were minors at the date of
adoption.

119a
I.

NUMBER AND GENDER

All references herein to the singular number and
neuter gender shall be deemed to include the plural
number and the masculine or feminine gender
when the context so indicates and vice versa.
J.

CALIFORNIA LAW

This Trust has been accepted by the Trustee and
will be administered in the State of California, and
its validity, constructions, and all rights thereunder, will be governed by the laws of that State.
K. SEVERABILITY CLAUSE
If any provision of this trust instrument is
unenforceable, the remaining provisions shall nevertheless be carried into effect.
L.

NOTICE OF EVENTS

Unless the Trustee shall have received actual
written notice of the occurrence of an event affecting the beneficial interests of this Trust, the
Trustee shall not be liable to any beneficiary of this
Trust for distribution made as though the event
had not occurred.
M. NO CONTEST CLAUSE
Trustor affirms that she has made provision
herein for all her relatives and legal heirs for whom
she desires to make provision. If any beneficiary
under this Trust Agreement shall contest it or any
of its parts or provisions, or Trustor’s Last Will, or

120a
any of its parts or provisions, any share or interest
given to, or provided for, that person shall be
revoked and shall pass proportionately to or
through the respective Trusts of which such person
was a beneficiary as if that person has predeceased
the Trustor, leaving no issue surviving, excluding
all such contestants and/or those voluntarily
assisting them.
IN WITNESS WHEREOF, the Trustor and Trustee
have executed this Trust Agreement to be effective
on the day and year first above written.
TRUSTOR
/s/ ANNABELL M. PALMER
ANNABELL M. PALMER
TRUSTEE
/s/ ANNABELL M. PALMER
ANNABELL M. PALMER
APPROVED
RAMSEY

AS TO

AND

FORM:

RASMUSSEN

/s/ NORMAN RASMUSSEN
NORMAN RASMUSSEN
Attorneys for Trustor

121a
STATE

OF

COUNTY

CALIFORNIA

OF

LOS ANGELES

)
)
)

SS

On this 12 day of March, in the year 1986, before
me, the undersigned, a Notary Public in and for
said State, personally appeared A NNABELL M.
PALMER, personally known to me (or proved to me
on the basis of satisfactory evidence) to be the person whose name is subscribed to the within instrument and acknowledged to me that she executed it.
WITNESS my hand and official seal.
/s/ NORMAN RASMUSSEN
Notary Public in and for said State
(SEAL)
OFFICIAL SEAL
NORMAN RASMUSSEN
Notary Public-California
PRINCIPAL OFFICE IN
LOS ANGELES COUNTY
MY COMMISSION EXPIRES JUNE 7, 1988

122a
PROPERTY OF TRUSTOR
ANNABELL M. PALMER
TRANSFERRED PURSUANT TO
TRUST AGREEMENT OF
THE ANNABELL M. PALMER FAMILY TRUST
Dated: March 12, 1986
Item No.

Description

1.

296,134 shares of the capital stock of
PARK INTERNATIONAL CORP., a California
corporation.

2.

All articles of personal, domestic or
household use, jewelry and similar
articles, furniture, books, pictures, silverware, and all household articles,
which are in, about, and used in connection with Trustor’s home at 270 St.
Joseph Street, Long Beach, California
90803.
EXHIBIT A

123a
FIRST AMENDMENT TO
TRUST AGREEMENT
OF
THE ANNABELL M. PALMER FAMILY TRUST
This First Amendment to Trust Agreement of the
Annabell M. Palmer Family Trust is made this 8th
day of August, 1995, at Long Beach, California,
BETWEEN

ANNABELL M. PALMER, herein referred
to as
“TRUSTOR”

AND

ANNABELL M. PALMER, herein referred
to as
“TRUSTEE”.

Trustor desires to amend and modify that Trust
Agreement dated March 12, 1986, creating The
Annabell M. Palmer Family Trust. Pursuant to the
power reserved to the Trustor to alter and amend
as contained in Paragraph. B, Article 2 thereof, this
First Amendment is hereby adopted.
TERMS AND PROVISIONS:
1. This First Amendment shall be effective as of the
date first appearing on page one above.
2. The provisions of Paragraph B of Article 3 are
deleted in their entirety and there is substituted in
lieu thereof, new Paragraph B which will read in
full as follows:

124a
“B.

UPON THE DEATH OF TRUSTOR

1. Upon the death of the Trustor, the successor
Trustee is authorized to reserve for and pay
any estate, inheritance, or other death taxes
due by reason of the Trustor’s death, and
attributable to taxable property contained in
the Trust Estate, and any expenses of last illness and funeral and the just debts of Trustor,
if any. Thereafter, the successor Trustee shall
hold, administer, and distribute the income
and principal of the Trust Estate as herein provided. All references herein to “Trustee” shall
include a successor Trustee or Co-Trustees.
2. The Trustee shall distribute and deliver the
Trustor’s personal effects, household furniture
and furnishings, automobiles, jewelry, watches,
silverware, pictures, books, works of art, wearing apparel and all other items of household or
personal use or ornament to the Trustor’s children, KATHLEEN KAY JOHNSON and JUDITH ANN
W OODARD , in equal shares, to be divided
between them as they may agree. If either
child is then deceased, then the share of the
deceased child shall be distributed to the
Trustor’s surviving child.
3. The Trustee shall distribute and deliver the
entire remaining balance of the Trust Estate to
the following named beneficiaries, in the percentages set opposite the name of each, subject
to the limitation set forth in section 4 below:

125a
KATHLEEN KAY JOHNSON

40%

JUDITH ANN WOODARD

40%

STEFANIE WOODARD

10%

WILLIAM A. WOODARD, JR. 10%
TOTAL

100%

4. Notwithstanding the foregoing provisions,
no distribution shall be made to any grandchild
of the Trustor until he or she shall have
attained age 35. Subject to the foregoing provisions, when the oldest living grandchild of
the Trustor has attained age 35, then in that
event, if K ATHLEEN J OHNSON , J UDITH A.
WOODARD and STEFANIE WOODARD (or the survivors of them if any are then deceased) all
agree in writing to terminate this Trust, they
may do so and distribute the principal to the
beneficiaries in their respective shares. Following a date which is two years after the death of
Grantor, Trustee may distribute all or any portion of the shares of KATHLEEN JOHNSON and
JUDITH A. WOODARD to them respectively.
5. In the event that JUDITH ANN WOODARD
should survive the Trustor, then notwithstanding the foregoing provisions, the gifts to
STEFANIE WOODARD and WILLIAM A. WOODARD,
JR., shall not exceed $500,000 in value each. If
there is any amount in excess of $500,000
in value each, such amount shall be added
equally to the shares of KATHLEEN KAY JOHNSON and J UDITH A NN W OODARD .

126a
6. In the event KATHLEEN JOHNSON should predecease the Trustor, her share of the Trust
Estate shall be distributed to the other beneficiaries as follows: 50% to the share of JUDITH A.
W OODARD , 25% to the share of S TEFANIE
WOODARD and 25% to the share of WILLIAM A.
WOODARD, JR.
7. In the event JUDITH A. WOODARD should predecease the Trustor, her share of the Trust
Estate shall be distributed to the other beneficiaries as follows: 50% to the share of KATHLEEN J OHNSON , 25% to the share of S TEFANIE
WOODARD and 25% to the share of WILLIAM A.
WOODARD, JR.
8. In the event STEFANIE WOODARD should predecease the Trustor, her share of the Trust
Estate shall be distributed to W ILLIAM A.
WOODARD, JR.
9. In the event W ILLIAM A. W OODARD , J R .
should predecease the Trustor, his share of the
Trust Estate shall be distributed to S TEFANIE
W OODARD .”
3. The provisions of Paragraph C of Article 3 are
deleted in their entirety and there is substituted in
lieu thereof, new Paragraph C which will read in
full as follows:
“C.

TERMINATION OF TRUST

The Trusts created hereunder, unless sooner
terminated in accordance with the provisions
hereof, shall in any event cease and terminate

127a
ninety (90) years from and after the date of creation of this Trust which appears on page one.
Upon such termination, the shares of the
entire Trust Estate (principal and any income
accrued or held undistributed) shall be distributed and paid over to the persons for whose
benefit (income beneficiary) such shares are
then held.”
4. The provisions of Section 2 of Paragraph D of
Article 4 are deleted in their entirety and there is
substituted in lieu thereof, new Section 2 which
shall read in full as follows:
“2. In the event the original Trustee named
herein resigns, refuses to act, or by reason of
death, disability, or other incapacity becomes
unable to act as Trustee, then JUDITH ANN
W OODARD and K ATHLEEN K AY J OHNSON are
appointed as successor Co-Trustees hereunder.
In the event of the death, disability, resignation or failure to act of a named Co-Trustee,
then the surviving or remaining Co-Trustee
shall serve as Co-Trustee with S TEFANIE
WOODARD who is appointed as a successor CoTrustee. In the event either of the Co-Trustees
should fail to qualify or cease to act for any reason, then the surviving or remaining CoTrustee shall serve with WILLIAM A. WOODARD,
JR. who is appointed as a successor Co-Trustee.
All references herein to “Trustee” shall include
“Co-Trustees.”

128a
5. The provisions of Paragraph M of Article 5 are
deleted in their entirety and there is substituted in
lieu thereof, new Paragraph M which shall read in
full as follows and shall be applicable to this
Amendment and to any and all other amendments
of the Trust Agreement:
“M. NO CONTEST CLAUSE
Trustor affirms that she has made provision
in the Trust Agreement for all her relatives
and legal heirs for whom she desires to make a
provision, and for the administration of this
Trust by the appointment of successor
Trustees. If any beneficiary under this Trust
Agreement, or any amendment thereof, shall
contest it or any of its parts or provisions, or
Trustor’s Last Wills, or any of their parts, provisions or amendments, including the appointment of a successor Trustee or Co-Trustees, of
the Trustors’ Wills, or any parts or provisions
thereof, or any Codicils thereto, or object or
contest the appointment of any Trustee, CoTrustee, Executor or Co-Executor named in
such documents, then any share or interest
given to, or provided for such person shall
thereupon be revoked, and the interest of such
person shall pass to or through the respective
trust of which such person was a beneficiary as
if that person has predeceased the Trustor,
leaving no issue surviving, including all such
contestants and/or those voluntarily assisting
them.”

129a
6. There shall be added to Article 5, new Paragraph
N which will read in full as follows:
“N. PROVISION OF CARE FOR TRUSTOR
The Trustee is directed by the Trustor to provide complete and comprehensive medical,
dental and personal care for the Trustor, which
shall include but not be limited to 24 hour
supervision in the Trustor’s home if necessary,
and care in an acute hospital, preferably
Memorial Medical Center of Long Beach. Such
care is to be provided without restriction due to
cost or expense. Trustor authorizes the invasion of principal to the fullest extent necessary
to provide for the care, comfort of the Trustor,
if necessary.”
7. There shall be added to Paragraph 4 of Article 4,
new Section 9 which will read in full as follows:
“9. The Trustee is authorized to give and grant
powers of attorney from time to time and to
name one or more persons to act as the attorney-in-fact for the Trustee or Co-Trustees; said
power of attorney shall have all of the power
and may perform any act that a Trustee could
take with respect to the Trust Estate and the
properties of the Trust Estate as if the action
were taken by the duly appointed Trustee or
Co-Trustees. Any person or entity dealing with
the Trust Estate may rely on the signature and
authority of the duly appointed attorney-infact and the Trust Estate shall be bound by the
action of such attorney-in-fact. This power of

130a
attorney may include signature authority over
any and all accounts in the name of the Trust
or Trustee including savings accounts, time
certificates of deposit, stock brokerage
accounts, mutual fund accounts or other
investments.”
8. Except as modified by this First Amendment, the
Trust Agreement dated March 12, 1986, as amended, is ratified and confirmed in all particulars.
IN WITNESS WHEREOF, the Trustor and Trustee
have executed this First Amendment to Trust
Agreement to be effective on the day and year first
above written.
TRUSTOR
/s/ ANNABELL M. PALMER
ANNABELL M. PALMER
TRUSTEE
/s/ ANNABELL M. PALMER
ANNABELL M. PALMER
APPROVED

AS TO

FORM:

/s/ NORMAN RASMUSSEN
NORMAN RASMUSSEN
Attorney for Trustor

131a
STATE

OF

COUNTY

CALIFORNIA

OF

LOS ANGELES

)
) ss
)

On August 8, 1995 before me NORMAN RASMUSSEN,
personally appeared ANNABELL M. PALMER personally known to me (or proved to me on the basis of
satisfactory evidence) to be the person whose name
is subscribed to the within instrument and
acknowledged to me that she executed the same in
her authorized capacity, and that by her signature
on the instrument the person, or the entity upon
behalf of which the person acted, executed the
instrument.
WITNESS my hand and official seal.
/s/ NORMAN RASMUSSEN
[SEAL]
NORMAN RASMUSSEN
COMM. #967153
Notary Public–California
LOS ANGELES COUNTY
MY COMMISSION EXPIRES JUNE 26, 1996

132a
ASSIGNMENT OF INTEREST
IN BANK ACCOUNT
ANN PALMER, as Assignee, does hereby assign,
transfer, convey and set over unto ANNABELL M.
PALMER, as Trustee of The Annabell M. Palmer
Family Trust, under Trust Agreement dated March
12, 1986, as Assignee, all of the Assignor’s right,
title and interest in and to that Bank Account/
Deposit at Union Bank of Switzerland, Beil
Switzerland, being account number CQUE 266.630,
which deposit was originally in the sum of
$4,000,000 U.S., together with all interest accrued
thereon.
Dated: January 14, 2003

/s/ ANN PALMER
ANN PALMER

133a

Exhibit P

134a
UNITED STATES DISTRICT COURT
FOR THE

SOUTHERN DISTRICT

OF

NEW YORK

Civil Action No. 18-cv-4372
KATHLEEN K. JOHNSON AND JUDITH WOODARD,
Individually and as Trustees of
The Annabell M. Palmer Family Trust,
Plaintiff(s)
v.
UNION BANK

OF

SWITZERLAND
Defendant(s)

SUMMONS IN A CIVIL ACTION
To: (Defendant’s name and address)
Union Bank of Switzerland
299 Park Avenue
New York, New York 10171
A lawsuit has been filed against you.
Within 21 days after service of this summons on
you (not counting the day you received it)—or 60
days if you are the United States or a United States
agency, or an officer or employee of the United
States described in Fed. R. Civ. P. 12 (a)(2) or (3)—
you must serve on the plaintiff an answer to the
attached complaint or a motion under Rule 12 of

135a
the Federal Rules of Civil Procedure. The answer
or motion must be served on the plaintiff or plaintiff’s attorney, whose name and address are:
The Dweck Law Firm, LLP
10 Rockefeller Plaza, Suite 1015
New York, NY 10020
If you fail to respond, judgment by default will be
entered against you for the relief demanded in the
complaint. You also must file your answer or
motion with the court.

Date: 05/16/2018

CLERK OF COURT
/s/ D. Howie
Signature of Clerk or
Deputy Clerk
[SEAL]

136a
UNITED STATES DISTRICT COURT
SOUTHERN DISTRICT OF NEW YORK
Docket No.:
Date Purchased:
KATHLEEN K. JOHNSON AND JUDITH WOODARD,
Individually and as Trustees of
The Annabell M. Palmer Family Trust,
Plaintiffs,
—against—
UNION BANK

OF

SWITZERLAND
Defendants.

COMPLAINT
JURY TRIAL DEMANDED
Plaintiffs complain of the Defendant, by their
attorneys, The Dweck Law Firm, LLP, and respectfully allege as follows:
NATURE OF ACTION
1. This action brought by the Plaintiffs, as
Trustees of the Annabell M. Palmer Family Trust
(the “Trust”),, arises from the deposit by Ann
Palmer, who at age 83, having been exposed to
undue influence by third parties, forwarded Four
Million ($4,000,000.00) Dollars to the Union Bank
of Switzerland (“UBS”). The money so deposited

137a
was to be held and specifically used for the establishment of an account for the purchase of Middle
Term Notes by and through the efforts of investment officers of the Defendant, Union Bank of
Switzerland. The claims by the Plaintiffs are for a
Declaratory Judgment, breach of fiduciary obligations, breach of confidence and trust placed in the
Defendant UBS by the late Ann Palmer, whether
by conversion, misappropriation, negligence, recklessness, or carelessness of the Defendant UBS,
which has benefitted from its illegal conduct in failing to give any information or to return, or account
for, the monies of Ann Palmer. This action seeks to
obtain information and to remedy the wrongful
conduct of the Defendant, and restore to the Plaintiffs, as Assignees of Ann Palmer, and Trustees of
the Annabell M. Palmer Family Trust, the monies
wrongfully taken and withheld from her, which
now belong to and are sought to be recovered by the
Trust.
THE PARTIES
2. At all times hereinafter mentioned, the Plaintiffs, Kathleen K. Johnson and Judith Woodard,
(The Trustees) are natural persons who are citizens
of the States of New York and Nevada, respectively.
3. Upon information and belief, the Defendant
Union Bank of Switzerland (“UBS”) is a foreign corporation, a citizen of Switzerland, with offices
within the City and State of New York, where it
conducts the business of banking and financial
investment management as authorized by the

138a
State of New York, and/or the United States Government, and/or the United States Securities and
Exchange Commission, and otherwise conducts
business in the State of New York on a regular and
continuous basis.
JURISDICTION AND VENUE
4. This Court has personal jurisdiction over the
Defendant UBS since it is a citizen of Switzerland
and pursuant to New York Civil Practice Law and
Rules § 301, the Defendant UBS is authorized to
conduct the business of banking, securities and
investment management within the State of
New York, and that the Defendant UBS has previously confirmed its presence and activities within
the State of New York, which said Defendant has
acknowledged within legal filings and admissions
which subject it to personal jurisdiction by the
Courts of the United States and the State of
New York. In addition, pursuant to the provisions
of CPLR § 302, this court has jurisdiction since the
Defendant has committed and is guilty of tortious
and illegal conduct outside of the State of
New York which has caused damages to the Plaintiffs, which the Plaintiffs have sustained both individually, and as Trustees of the Annabell M.
Palmer Family Trust, within the State of New York.
5. Venue is proper within New York County
based upon the New York County residences and
offices of the Plaintiff, Kathleen Johnson and UBS
respectively.

139a
AS AND FOR A FIRST CAUSE OF ACTION
(DECLARATORY JUDGMENT)
6. Prior to the commencement of this action, Ann
Palmer, (the Decedent) assigned and transferred
to the Plaintiffs, who are her daughters, and
Trustees of the Annabell Palmer Family. Trust, all
of her right, title and interest in and to her claims
against UBS and others for the recovery of Four
Million ($4,000,000.00) Dollars, which she deposited with UBS into an account to be held for her benefit, and use, and, following the assignment, the
Trust beneficiaries.
7. Upon information and belief, and in or about
August 1998, prior to the transfer of any monies by
the Decedent or her engaging in any business
transactions with UBS, the Decedent, then an elderly woman in her eighties, living alone and having
been exposed to undue influence by third parties,
had an understanding of some banking, business
and investment practices and requirements for
investments. At that time the plaintiff was
approached by various individuals, who made representations to her which included, without limitation, the following statements in word or
substance:
i.

If the Decedent transferred Four Million
($4,000,000.00) Dollars to UBS in the
name of the Decedent, the same would be
held for the Decedent by UBS pursuant to
her written instructions for the disposition
of the same by investment or otherwise.

140a
ii.

If the Decedent would deposit at least Four
Million ($4,000,000.00) Dollars into at
account at UBS, in her name, in conjunction with an authorized and qualified
investment advisor from UBS, her money
would be invested in the purchase of
Middle Term Notes of highly rated banks
in Europe who would issue such notes in
AA or better S&P rated banks.

iii. Any monies to be invested by the Decedent
would be kept on deposit with UBS, whose
investment personnel would act to preserve the capital of the Decedent so as to
insure that the Decedent would have a regular source and flow of income.
iv. In consideration of the transfer by the
Decedent of Four Million ($4,000,000.00)
Dollars to UBS, a UBS Trust Officer and
Trading Coordinator at UBS, would establish an account for the . Decedent for
investment purposes as above described
for the purchase and sale of Middle Term
Notes.
v.

After each of the Medium Term Notes had
been paid, UBS Investment Management
personnel would sell or redeem the same
for the account and benefit of the Decedent.

8. In reliance upon the representations, statements, warranties and promises made to the Decedent as aforedescribed, the Decedent furnished to

141a
UBS, Four Million ($4,000,000.00) Dollars, by
transfer from her account at Citibank in the United
States, to UBS in Beil, Switzerland, to establish an
account in her name as sole owner and signatory.
9. The monies were transferred by wire by Ann
Palmer to UBS on or about the August 24, 1998,
evidenced by written confirmations to UBS from
the Decedent’s account at Citibank.
10. By virtue of the deposit of monies as aforedescribed, Ann Palmer was in a fiduciary relationship with UBS as her investment advisor or
manager. In addition, she became a depositor/
creditor of UBS Bank in the sum of Four Million
Dollars, and was, and is entitled to the return of
said sum from the UBS Bank, together with all
accrued interest.
11. The Plaintiffs, as successors in interest of the
benefits of said deposit by Ann Palmer, have made
inquiries and demands of UBS personally and in
Court proceedings for information as to the disposition of said monies, and the return of said monies,
which UBS has failed and refused to do, but has
opposed the same with claims that such release of
the information demanded would violate Swiss
criminal statutes.
12. A genuine controversy exists between the
Plaintiff and the Defendant with respect to the
rights and obligations of the Defendants to the
delivery and disposition of . the Four Million
($4,000,000.00) Dollars, heretofore deposited by
the Decedent with UBS.

142a
13. UBS has. retained the monies of the Decedent
and the Plaintiffs, as set forth within this complaint, which is believed to have been done in violation of the law, and the rights of Decedent and
the Plaintiffs, existing legal and ethical practices
and customs, as well as in violation and understandings of, the Decedent as set forth within
Paragraph 7 of this Complaint and, in addition, has
willfully failed to furnish any information with
respect to the disposition of said funds.
14. The Plaintiffs seek a declaratory judgment
which sets forth the rights of the Plaintiffs as
against the Defendant, together with the appropriate, additional judgment and declaration by this
Court, that the Plaintiffs are entitled to the return
of the sum of Four Million ($4,000,000.00) Dollars
heretofore deposited with the Defendant UBS by
the Decedent, along with any accretions or accumulations attributable to those funds and interest
according to the law.
15. By virtue of all of the foregoing, the Plaintiffs
request declaratory judgment which sets forth the
rights of the Plaintiffs, with respect to the monies
deposited with and delivered to UBS, together with
such other and further relief as to this court may
seem just and proper.

143a
AS AND FOR A SECOND CAUSE OF ACTION
(BREACH OF FIDUCIARY OBLIGATIONS)
16. Plaintiffs repeat and reallege each and every
allegation of paragraphs of the Complaint. numbered “1” through “15” inclusive, with the same
force and effect as if more fully set forth at length
herein.
17. The obligations of UBS as a fiduciary, financial advisor and investment manager, carry duties
of care, loyalty, candor, disclosure and good faith
upon those entities acting as investment and financial advisors such as UBS. Such legal duties prohibit UBS from refusing to make a full disclosure of
all transactions conducted in and for the account of
the Decedent and the Plaintiffs, or from otherwise
withholding the information which pertain to the
same and the return of the monies properly belonging to the Decedent and the Plaintiffs as Trustees.
18. As the investment advisors, and administrative agents of the Decedent, UBS undertook to act
as a Fiduciary agent of the Decedent. By virtue of
the fiduciary relationship which arose between the
Decedent and UBS, there arose, and Plaintiff was
owed, duties of good faith, due care, loyalty, full
disclosure to, and due, diligence on behalf of, UBS
and the Plaintiffs as her successors-in-interest.
19. The Decedent did transfer and deliver to UBS
the sum of Four Million ($4,000,000.00) Dollars,
upon the express reliance and belief by the Decedent that UBS would act as a fiduciary for her, as

144a
a result of which she thereby refrained from pursuing other financial investments and alternatives.
20. The. Defendant has unjustifiably and inexcusably breached its fiduciary duties to the Decedent and continues to breach such duties to the
Plaintiffs by having excluded the Decedent, and
presently excluding the Plaintiffs, respectively,
from the management, or any information with
respect to the account of the Decedent and denying
them access to information concerning the account
of. the Decedent and the Plaintiffs. Since August
1998, up to and including the present time, UBS
has failed and/or refused to furnish any information concerning the disposition of the Plaintiffs.’
monies in the sum of Four Million ($4,000,000.00)
Dollars or to account for the same.
21. By virtue of all of the foregoing, and since the
Decedent intended to, and did in fact, rely on her
relationship with UBS, as aforedescribed, UBS has
breached its fiduciary duties and obligations to the
Decedent which caused serious and substantial
injury and harm to the Decedent, which has continued to be suffered to date since the death of the
Decedent, by the Plaintiffs, both individually, and
as Trustees of the Annabell Palmer Family Trust,
and on behalf of the beneficiaries of said Trust as
well.
22. The breach of its fiduciary obligations and
duties by UBS was committed knowingly, willfully
and deliberately, for which the Plaintiffs seek an
award of exemplary damages in addition to com-

145a
pensatory damages.
23. The Plaintiffs seek to recover an award of
actual damages in the sum to be determined upon
a trial of this action, but in no event less than Four
Million ($4,000,000.00) Dollars, together with
interest according to law and the costs and disbursements of this action.
24. As a direct and proximate result of this
breach of duty by UBS, the Decedent and the Plaintiffs have been greatly damaged and continue to
face significant losses for the Trust and the Trust
Beneficiaries. Such harm cannot be adequately
redressed at law, and the Plaintiffs will continue to
suffer irreparable harm unless UBS, is enjoined
from engaging in the illegal and unlawful conduct
described within this Complaint.
25. In addition, UBS has engaged in such conduct
and activity as constitutes a breach of its obligations as a fiduciary to and with the Decedent and
the Plaintiffs, as Assignees of the Decedent, including without limitation, having failed to furnish a
statement of the account of the Decedent, failed to
account for any purchases or sales of securities or
Medium Term Notes to or for the benefit of the
Decedent and/or the Plaintiffs, utilizing the funds
of the Decedent and the Plaintiffs, without reporting or including the same in any statements, to the
Decedent or the Plaintiffs, and, upon information
and belief, UBS misappropriated or converted
monies or securities from the account of the Decedent, for its own uses and purposes, and such other

146a
similar conduct as constitutes a breach by UBS of
its fiduciary obligations to the Decedent and to the
Plaintiffs.
26. As a direct and proximate result of this
breach of its fiduciary duties by UBS, the Decedent
and the plaintiffs have been greatly damaged and
continue to face significant losses for the Trust and
the Trust Beneficiaries.
27. Such harm cannot be adequately redressed at
law, and the Plaintiffs will continue to suffer
irreparable harm unless UBS is compelled to disclose the details of the illegal and unlawful conduct
described within.
AS AND FOR A THIRD CAUSE OF ACTION
(BREACH OF CONTRACT)
28. Plaintiffs repeat and reallege each and every
allegation of paragraphs of the Complaint numbered “1” through “27” inclusive, with the same
force and effect as if more fully set forth at length
herein.
29. By virtue of the deposit of Four Million
($4,000,000,00) Dollars by the Decedent into an
account in her name at the UBS bank in Switzerland, there arose between the Plaintiff and the
Defendant UBS, a relationship of Debtor and creditor, wherein and whereby the UBS Bank became a
Debtor of the Decedent and the Plaintiffs, as her
successors-in-interest, by virtue of which UBS was

147a
and is indebted to the Decedent, and thereafter the
Plaintiffs, of all of the monies on deposit with UBS.
30. UBS has unjustifiably breached this contractual relationship by failing to remit and return the
monies due the Decedent and thereafter to the
Plaintiffs.
31. As a direct and proximate result of this
breach of duty, the Decedent and thereafter the
Plaintiffs have suffered monetary damages in the
amount of not less than Four Million ($4,000,000.00)
Dollars for which the Defendant UBS is liable.
AS AND FOR A FOURTH CAUSE OF ACTION
(MONEY HAD AND RECEIVED)
32. Plaintiffs repeat and reallege each and every
allegation of paragraphs of the Complaint numbered “1” through “31” inclusive, with the same
force and effect as if more fully set forth at length
herein.
33. Upon information and belief, UBS received
the monies of Ann Palmer for the purchase of Medium Term Notes, with respect to which UBS was to
select and advise the Decedent as to suitability for
the benefit of the Decedent.
34. Upon information and belief, the Defendant
failed to purchase any Medium Term Notes for the
benefit of the Decedent and has retained, or otherwise misappropriated, said monies to the exclusion
of the Decedent and the Plaintiffs as her successors-in-interest.

148a
35. By virtue of all of the foregoing there is .due
and owing from UBS to the Plaintiffs the sum of
Four Million ($4,000,000.00) Dollars, together with
interest according to law.
AS AND FOR A FIFTH CAUSE OF ACTION
(BREACH OF COVENANT OF GOOD FAITH)
36. Plaintiffs repeat and reallege each and every
allegation of paragraphs of the Complaint numbered “1” through “35” inclusive, with the same
force and effect as if more fully set forth at length
herein
37. UBS has materially breached the covenant of
good faith in its dealings with the Decedent and the
Plaintiffs in:
a.

Having failed to invest the monies of the
Decedent in Medium Term Notes, as aforedescribed.

b.

In having failed to account to the Decedent, and to the Plaintiffs, of the disposition of all monies of the Decedent from the
date the Monies were transferred by the
Decedent to UBS, to the date of the commencement of this action.

c.

In having refused to allow the Decedent,
her representatives or her accountants,
respectively, to examine the financial
records of UBS with respect to the monies
transferred by the Decedent to UBS.

149a
d.

In having failed to live up to the terms of
the agreement between the Decedent and
UBS, and in UBS having failed to fulfill its
obligations and the representations made
to the Decedent, as more fully set forth in
paragraph 7 of this complaint,

e.

In having forced and, compelled the Plaintiffs to commence this action, delay discovery proceedings and to incur legal fees and
expenses in their attempts to secure information and to recover monies lawfully due
to the Decedent and the Plaintiffs as
Trustees of the Annabell M. Palmer Family Trust.

38. As a result of the Defendant’s breaches of the
covenant of good faith as set forth herein, the
Plaintiffs have suffered particular money damages
in an amount to be determined at trial but in no
event less than the sum of Four Million
($4,000,000.00) Dollars.
AS AND FOR AN SIXTH CAUSE OF ACTION
(ACCOUNTING)
39. Plaintiffs repeat and reallege each and every
allegation of paragraphs of the Complaint numbered “1” through “38” inclusive, with the same
force and effect, as if more fully set forth at length
herein.

150a
40. UBS, has collected and retained the sum of
Four Million ($4,000,000.00) Dollars which was
and is the property of the Decedent, and the Plaintiffs as her successors-in-interest, who forwarded
said sum to UBS based upon the statements, as
more fully set forth in Paragraph 7 hereof as well
as the legal requirements with respect to deposits
and transfers to banks and investment managers.
41. UBS has collected, retained and utilized the
funds of the Decedent, and the Plaintiffs, as successors-in-interests to the Decedent, unlawfully and
illegally.
42. The Plaintiffs do not know, and cannot ascertain, the disposition of the monies forwarded to
UBS as alleged herein, and hereby demand that
UBS render to the Plaintiffs, a full, true and just
Accounting of the monies heretofore delivered to it
as hereinabove set forth.
43. The Plaintiffs have no means of ascertaining
the exact amount of money to which they are entitled as Trustees of the Annabell M. Palmer Trust
which at a minimum is $4,000,000,00 and which
amount can only be determined by a full and complete account by UBS of all of the monies delivered
to it by the Decedent.
44. By virtue of all of the foregoing, the Plaintiffs
demand a full and true accounting by UBS of all of
the monies, investments, dividends, interests and
other benefits which accrued or would have accrued
to the Decedent and the Plaintiffs as her successors-in-interest, and to which the Plaintiffs are

151a
entitled from the date that the Decedent delivered
the sum of Four Million ($4,000,000.00) Dollars to
UBS to the date of any judgment issued in this
action.
45. The Plaintiffs have, no adequate remedy at
law.
AS AND FOR AN
SEVENTH CAUSE OF ACTION
(FOR CONVERSION)
46. Plaintiffs repeat and reallege each and every
allegation of paragraphs of the Complaint numbered “1” through “45” inclusive, as if more fully set
forth at length herein.
47. Upon information and belief, UBS received
and retained, appropriated and/or paid the sum of’
Four Million ($4,000,000.00) Dollars to a thirdparty or parties without any authorization or signature from the Decedent, or from the Plaintiffs,
and then debited the sum of Four Million
($4,000,000.00) Dollars from the account of Ann
Palmer, without any subsequent ratification by her
or the Plaintiffs as her successors-in-interest.
48. UBS failed to give the Decedent or the Plaintiffs any notice of the payment of the said monies
from her account before having made such payment.
49. UBS has converted the sum of Four Million
($4,000,000.00) Dollars which it debited from the
account of the Decedent.

152a
50. UBS owes the Plaintiffs Four Million
($4,000,000.00) Dollars, together with interest
according to law for which the Plaintiffs demand
judgment.
WHEREFORE, the Plaintiffs demand judgment
against UBS as follows:
(a) on the First Cause of Action for a Declaratory Judgment that the Plaintiffs are entitled
to an award of money due to them from UBS in
such sum as is found to be due to the Plaintiffs
(b) on the Second Cause of Action for damages against UBS for breach of its fiduciary
obligations in the sum of Four Million
($4,000,000.00) Dollars compensatory damages
and exemplary damages of an additional Five
Million ($5,000,000.00) Dollars;
(c) on the Third Cause of Action for damages
for breach of contract in the sum of Four Million ($4,000,000.00) Dollars;
(d) on the Fourth Cause of Action for damages for Money Had and Received in the sum of
Four Million ($4,000,000.00) Dollars;
(e) on the Fifth Cause of Action for damages
for breach of the covenant of Good Faith in the
sum of Four Million ($4,000,000.00) Dollars;
(f) on the Sixth Cause of Action for a judgment which compels and directs UBS and to
render a full, true and just account to the
Plaintiffs, and upon such accounting for judg-

153a
ment for such amount found to be due to the
Plaintiffs;
(g) on the Seventh Cause of Action for a
judgment for damages due to the Plaintiffs
for conversion in the sum of Four Million
($4,000,000.00) Dollars;
(h) interest according to the law;
(i) together with attorney’s fees for the prosecution of this action;
(j) the costs and disbursements of this action;
(k) such other and further relief as to this
Court may seem just and proper.
THE DWECK LAW FIRM LLP
By: /s/ JACK S. DWECK
Jack S. Dweck
Attorneys for Plaintiffs
10 Rockefeller Plaza
New York, NY 10020
(212) 687-8200

154a

Exhibit Q

155a
Translation of the letter of UBS AG of October 20,
2005 to Dr. W. Dietschi October 21, 2005/D/sa
UBS AG
Reber Rechtsanwaite
Dr. Will Dietschi
Dufourstrasse 43
Postfach 926
8034 Zurich
October 20, 2005
Ann Palmer, Account No. [REDACTED]
Dear Mr. Dietschi,
We refer to your letter of October 7, 2005.
In the name of your client, you claim that she
transferred in August 1998 through the services of
Citibank the amount of USD 4 million to an
account at UBS AG, assuming that this amount
would subsequently be at her disposal. This
assumption was based on the fact that the transferring Citibank mentioned expressly Ann Palmer as
beneficiary of the transfer. You further wrote that
the holder of the account was not Ann Palmer.
However, you claim that by making the transfer,
Mrs. Palmer submitted a proposal for the conclusion of an agreement regarding the deposit of the
transferred amount which proposal was accepted
by UBS AG.
We totally contest your claims and statements.

156a
The facts which you describe in your letter have to
be qualified as order of the type which are given
routinely by bank clients [order according to art.
466 et seq. CO]. There is absolutely no basis for
your claim that the giving of an order to transfer a
certain amount to a bank account is also a proposal
for the conclusion of an agreement regarding the
deposit of the transferred sum.
Your client instructed Citibank to transfer the
amount of USD 4 million in favour of a numbered
account at UBS in Biel; your client knew that this
account was not in her name. The mention of the
name “Ann Palmer” besides the number of the
numbered account is therefore nothing else than an
information for the holder of the account that the
transferred amount had been paid in by Ann
Palmer.
The intention of Ann Palmer to transfer the
amount not to an own account and not to submit a
proposal for the conclusion of an agreement regarding the deposit of the transferred sum but rather to
transfer the amount to the account of a third person results also from a brief, which is accessible
through the internet, of the lawyer of Ann Palmer,
William F. Swearinger, against a person by the
name of William J. Herisko. It results from this
brief, page 4, that Ann Palmer, in order to make an
investment, apparently transferred the amount of
USD 4 million to pay the acquisition costs for a
“Special Trading Account”.

157a
Summarizing the above, we conclude that UBS has
acted entirely according to the instructions of your
client. The order to transfer a certain amount to
a numbered account at UBS in Biel has been executed according to the instructions. Your client
does not and did not have an account, neither at
UBS in Biel nor at another branch office and, consequently, cannot claim that she wanted to make a
transfer to an own account. She cannot claim either
that, by giving an order to transfer a certain
amount to a certain numbered account, a proposal
for the conclusion of an agreement regarding the
deposit of the transferred amount was made.
Sincerely yours,
UBS AG
[signature]

158a
The Union Bank of Switzerland Fraud
The USRBT was not the first time that Herisko
victimized Ms. Palmer through a fraudulent “prime
bank scheme.” In or about August 1998, Herisko
convinced then-83 year old Ms. Palmer to transfer
$4 million to a bank account at Union Bank of
Switzerland [“the Swiss Bank”] in Biel, Switzerland. In plain violation of the court order requiring
Herisko and Global Link to stop offering fraudulent
“prime bank instruments,” Herisko faxed numerous documents to Ms. Palmer on August 18 and 19,
1998 in an effort to induce her to “invest” in the
Swiss Bank scheme. Some of these documents are
annexed hereto as Exhibit B.
Herisko represented to Ms. Palmer that the
purpose of her “investment” was to “fund the acquisition cost of a Special Trading Account to accommodate Global Link Capital Markets, Ltd.’s
participation in a major Swiss Bank’s private
placement of medium term notes.” See Exhibit B at
p. 7. Specifically, Herisko represented that Global
Link:
. . . has access to a Trading Account in Union
Bank of Switzerland (UBS). Said Account carries a special number that identifies said
Account as a United States Federal Reserve
approved Trading Account. Said Account is
recognized by said Bank as one of a few,
select, existing accounts that have been designated by said Bank to handle the Private
Placements of Medium Term Notes issued by
AA or better S&P rated banks on behalf of

159a
said bank’s most creditworthy Clients on a
confidential basis.
See Exhibit B at p. 9.
Relying on Herisko’s representations about the
nature of the Swiss Bank “investments” and his
additional representations that her funds were safe
and would yield a high rate of return, Ms. Palmer
transferred $4 million to the Swiss Bank. See
Exhibit B at 1. We believe Herisko’s representations were intentionally and materially false. Similar to the government’s allegation in the USRBT
case, it is our belief that the bank trading program
purportedly involved in the Swiss Bank transaction
simply does not exist.
To date, Ms. Palmer has not received a penny
from the Swiss Bank transaction, although Herisko
repeatedly promised to return the money to her.
Her $4 million was deposited in Switzerland where
secrecy laws prevent us from tracing the funds.

160a

Exhibit R

161a
PARTIES
15. Plaintiff Financial Structures Limited is an
insurance company organized under the laws of
Bermuda, with an office at 44 Church Street,
Hamilton HM12, Bermuda.
16. Plaintiff Arrowood Indemnity Company, formerly known as Royal Indemnity Company, is a
Delaware corporation, with its principal place of
business at 3600 Arco Corporate Drive, Charlotte,
North Carolina 28273. Arrowood Indemnity Company is licensed as an insurer in the State of
New York.
17. Defendant UBS AG is a Swiss corporation,
with registered offices in Zurich, Switzerland and
Basel, Switzerland. UBS AG’s Articles of Association state that “The purpose of the Corporation is
the operation of a bank. Its scope of operations
extends to all types of banking, financial, advisory,
trading and service activities in Switzerland and
abroad.”
18. UBS AG has offices in the United States.
UBS AG’s principal place of business in the State of
New York is in New York County, including at 101
Park Avenue, New York, New York 10178 and 299
Park Avenue, New York New York 10171. UBS AG
does business in the State of New York.
19. UBS states that it “is the leading global
wealth manager, a leading global investment banking and securities firm, and one of the largest global asset managers.”

162a
20. Defendant UBS Securities LLC, which was
formerly known as UBS Warburg LLC, is a
Delaware limited liability company. UBS Securities’ principal place of business in the State of
New York is in New York County, including at
1285 Avenue of the Americas, New York, New York
10019 and 299 Park Avenue, New York, New York
10171. UBS Securities is an indirect wholly-owned
subsidiary of UBS AG, and serves as UBS AG’s
broker-dealer in the

163a

Exhibit S

164a
7. UBS denies the allegations in Paragraph 7 of the
Complaint.
8. UBS denies the allegations in Paragraph 8 of the
Complaint.
9. UBS denies the allegations in Paragraph 9 of the
Complaint.
10. UBS denies the allegations in Paragraph 10 of
the Complaint.
11. UBS denies the allegations in Paragraph 11 of
the Complaint.
12. UBS denies the allegations in Paragraph 12 of
the Complaint.
13. UBS denies the allegations in Paragraph 13 of
the Complaint.
14. UBS admits that, in bringing this action, Plaintiffs are seeking money damages and injunctive
relief as set forth in the Complaint. The allegations
in Paragraph 14 of the Complaint are otherwise
denied.
15. UBS admits that FSL is an insurance company.
UBS otherwise denies knowledge or information
sufficient to form a belief as to the truth of the allegations in Paragraph 15 of the Complaint.
16. UBS admits the allegations in Paragraph 16 of
the Complaint.
17. UBS admits the allegations in Paragraph 17 of
the Complaint.

165a
18. UBS admits the allegations in Paragraph 18 of
the Complaint.
19. UBS admits that UBS has described itself in
the language quoted in Paragraph 19 of the Complaint.

